APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
____________
No. 19-10083
____________

[PUBLISH]

D.C. Docket No. 8:18-cr-00100-VMC-AAS-1
UNITED STATES OF AMERICA,
Plaintiff–Appellee,
versus
ANTHONY W. KNIGHTS,
Defendant–Appellant.
___________________
Appeal from the United States District Court
for the Middle District of Florida
__________________
(March 10, 2021)
Before
WILLIAM
PRYOR,
Chief
Judge,
*
ROSENBAUM, Circuit Judge, and MOORE, District
Judge.
WILLIAM PRYOR, Chief Judge:

*

Honorable K. Michael Moore, Chief United States District
Judge for the Southern District of Florida, sitting by
designation.

2a
Anthony Knights moved for rehearing en banc of
our opinion that issued on August 3, 2020. We
construe his motion as a petition for both rehearing
en banc and panel rehearing. Fed. R. App. P. 35, 11th
Cir. I.O.P. 2. We grant the motion for panel
rehearing, vacate our original opinion in this appeal,
and substitute in its place the following opinion.
This appeal requires us to decide whether officers
violated Anthony Knights’s right to be free from
unreasonable
seizures,
under
the
Fourth
Amendment, by conducting an investigatory stop
without reasonable suspicion. Two officers saw
Knights and Hozell Keaton around 1:00 a.m. in a car
that was parked in the front yard of a home.
Suspecting that the men might be trying to steal the
car, the officers parked near it and approached
Knights, who was in the driver’s seat. When Knights
opened the door, an officer immediately smelled
marijuana. The ensuing search of Knights and the
car revealed ammunition and firearms. Because
Knights had felony convictions, a grand jury charged
him with possession of a firearm and ammunition by
a felon, 18 U.S.C. §§ 922(g)(1), 924(a)(2). Knights
moved to suppress the evidence the officers found and
the statements he made as fruit of an unlawful
seizure. The district court denied the motion,
convicted Knights, and sentenced him to 33 months
of imprisonment. We affirm because Knights’s
interaction with the officers was a consensual
encounter that did not implicate the Fourth
Amendment.

3a
I. BACKGROUND
Late at night, Anthony Knights, Hozell Keaton,
and Knights’s nephew were smoking marijuana and
listening to music while sitting in or standing near
an Oldsmobile sedan in Tampa, Florida. The car was
parked in a grassy area between the street and the
white fence of a home that belonged to one of
Keaton’s relatives. The driver’s side of the car was
near the street and the passenger’s side was near the
fence.
On a routine patrol around 1:00 a.m., Officers
Andrew Seligman and Brian Samuel of the Tampa
Police Department saw two of the car’s doors open
with Knights and Keaton leaning into the car. The
officers believed that Knights and Keaton might be
stealing something from the car. They knew the area
to be “high crime” and to have gang activity from
their experience responding to multiple shootings
and narcotics crimes. So they drove past the
Oldsmobile for a better look. Knights and Keaton
then “gave the officers a blank stare,” and according
to Officer Seligman, “kind of seemed nervous.” The
officers then heard someone unsuccessfully try to
start the car. Thinking that Knights and Keaton
“might be actually trying to steal the vehicle,” the
officers decided to investigate further.
Officer Seligman decided to turn around and park
the patrol car near the Oldsmobile, which was parked
on a grassy area next to the street in the direction of
traffic for that side of the road. Officer Seligman
parked on the street next to the Oldsmobile in the
wrong direction for traffic so that the trunk of the
patrol car was nearly aligned with the trunk of the

4a
Oldsmobile. As Officer Seligman was parking, he
trained his flashlight on Knights. According to
Knights and Officer Seligman, the patrol car was
parked in a way that would have allowed Knights to
drive away. Officer Samuel left the patrol car and
attempted to talk to Keaton, who was walking toward
the house, but Keaton entered the house without
responding.
The officers then approached Knights, who sat in
the driver’s seat and closed the car door. Officer
Seligman approached the car with his flashlight and
knocked on the driver’s window. When Knights
opened the door, Officer Seligman “was overwhelmed
with an odor of burnt marijuana.” Officer Seligman
asked Knights if he owned the car, and Knights said
that he and his wife owned it and gave Officer
Seligman his driver’s license and possibly the
registration for the car. The officers later confirmed
that his wife owned the car. When Officer Seligman
asked Knights if he had marijuana, Knights said, “I’ll
be honest with you. It’s all gone.”
Officer Seligman then began to search for
narcotics. He searched Knights’s person and found a
pill bottle containing several different kinds of pills.
Officer Seligman arrested Knights and searched his
car, starting with a backpack that Knights said
contained a prescription for the pills. He found
medical documents, a firearm cartridge, and a ski
mask. He also found a scale, smoked marijuana,
marijuana residue, a handgun, a rifle, and another
firearm cartridge. Knights agreed to an interview
after the officers warned him of his rights, see
Miranda v. Arizona, 384 U.S. 436, 444 (1966), and he
then admitted that he owned the handgun. Knights

5a
and the officers described the entire encounter as
calm and amicable.
A grand jury indicted Knights on one count of
possessing a firearm and ammunition as a felon, 18
U.S.C. §§ 922(g)(1), 924(a)(2). Before trial, Knights
moved to suppress his admissions and the evidence
the officers found during the search. He argued that
they were fruit of an illegal seizure that occurred
when—without reasonable suspicion—the officers
parked behind his car or, at the latest, when they
walked up to his car. The government responded that
the incident “began as a police-citizen encounter” and
did not turn into a “seizure” until the officers started
searching for narcotics based on probable cause that
Knights possessed marijuana, and alternatively, the
officers had reasonable suspicion to conduct an
investigatory stop.
The district court referred the motion to a
magistrate judge who held a hearing and
recommended granting the suppression motion. The
magistrate judge recommended ruling that the
officers conducted an investigatory stop because “the
officers’ show of authority, especially Officer
Seligman, their locations as they approached the car,
and the patrol car impeding Mr. Knights’s ability to
drive away, [established that] no reasonable person
in Mr. Knights’s position would feel free to leave or
disregard the two officers.” And because the
magistrate judge determined that the officers lacked
reasonable suspicion and the physical evidence and
statements were fruit of the unlawful seizure, she
recommended granting the motion.

6a
The district court, after considering briefing and
oral argument, accepted the magistrate judge’s
recitation of the facts but disagreed with her
recommendation and denied the suppression motion.
It explained that the constitutionality of the officers’
conduct turned on when they seized Knights because
the odor of marijuana provided a lawful basis for
seizing him. It ruled that the officers did not seize
him when they parked their patrol car and walked up
to Knights because “it was a police-citizen encounter
involving no detention and no coercion.” The district
court found that Knights could have either driven
away “with skilled driving” or walked away. It also
relied on the absence of the police questioning
Knights, displaying their weapons, touching him,
asking for his identification, or having a verbal
exchange with him.
Knights proceeded to a bench trial at which he
and the government stipulated to the relevant facts.
The district court adjudicated him guilty and
sentenced him to a below-guideline sentence of 33
months of imprisonment.
On appeal, Knights argued that his perspective
as a young black man was relevant to the question
whether a seizure occurred. In our original opinion,
we agreed that “the age and race of a suspect may be
relevant factors,” but we concluded that they were
not decisive in Knights’s appeal. Because a
reasonable person in his position would have felt free
to leave, he was not seized, and so we affirmed his
conviction. Knights then petitioned for rehearing en
banc. In his petition, he argued that we erred by not
treating his identity as “a factor that matters.”
According to Knights, the correct inquiry was

7a
whether a reasonable young black man would have
felt free to drive or walk away from the police. Upon
reconsideration, and with the benefit of additional
briefing by the parties, we substitute this opinion to
address that issue.
II. STANDARDS OF REVIEW
“A district court’s ruling on a motion to suppress
presents a mixed question of law and fact.” United
States v. Perez, 443 F.3d 772, 774 (11th Cir. 2006)
(internal quotation marks omitted). We review its
legal conclusions de novo, and we accept its factual
findings unless they are clearly erroneous. Id. We
construe the facts in the light most favorable to the
government because it prevailed in the district court.

Id.
III. DISCUSSION
The Fourth Amendment protects “[t]he right of
the people . . . against unreasonable searches and
seizures.” U.S. Const. amend. IV. A “seizure” does not
occur every time a police officer interacts with a
citizen. Officers are free to “approach[] individuals on
the street or in other public places and put[]
questions to them if they are willing to listen.”
United States v. Drayton, 536 U.S. 194, 200 (2002).
In these consensual encounters, the officers need no
suspicion because the Fourth Amendment is not
implicated. Florida v. Bostick, 501 U.S. 429, 434
(1991); Perez, 443 F.3d at 777–78. But officers need
reasonable suspicion if an encounter becomes an
investigatory stop. See Bostick, 501 U.S. at 434;
United States v. Jordan, 635 F.3d 1181, 1186 (11th
Cir. 2011). An investigatory stop occurs “[o]nly when
the officer, by means of physical force or show of

8a
authority, has in some way restrained the liberty of a
citizen.” Jordan, 635 F.3d at 1185 (quoting Terry v.
Ohio, 392 U.S. 1, 19 n.16 (1968)).
The test for whether the officer restrained a
citizen’s liberty is whether “a reasonable person
would feel free to terminate the encounter.” Drayton,
536 U.S. at 201; see also Immigr. & Naturalization
Serv. v. Delgado, 466 U.S. 210, 215 (1984). We must
imagine how an objective, reasonable, and innocent
person would feel, not how the particular suspect felt.
Drayton, 536 U.S. at 202; Michigan v. Chesternut,
486 U.S. 567, 574 (1988). All the circumstances are
relevant, Bostick, 501 U.S. at 439, including “whether
a citizen’s path is blocked or impeded”; whether the
officers retained the individual’s identification; “the
suspect’s age, education and intelligence; the length
of the . . . detention and questioning; the number of
police officers present”; whether the officers displayed
their weapons; “any physical touching of the
suspect[;] and the language and tone of voice of the
police.” Perez, 443 F.3d at 778 (internal quotation
marks omitted); see also United States v.
Mendenhall, 446 U.S. 544, 554 (1980) (opinion of
Stewart, J.).
Knights argues that the district court should
have suppressed his admissions and evidence
because the officers stopped him without reasonable
suspicion when they parked the patrol car close to his
car and then approached him. He does not challenge
any seizure that occurred after that point. The
government responds that the encounter between
Knights and the officers was initially consensual and
alternatively that the officers had reasonable
suspicion. Because we conclude that the encounter

9a
was initially consensual, we need not decide whether
the officers had reasonable suspicion.
In this encounter, a reasonable person would
have felt free to leave. In fact, Knights’s companion
Keaton did leave. As Keaton had done, Knights was
physically capable of walking away. He also could
have driven away, and the officers did not display
their weapons, touch Knights, or even speak to him—
let alone issue any commands or ask him for his
identification and retain it. And before the officers
approached Knights, they did not activate the
lightbar or siren on the patrol car, and as we have
mentioned, they allowed Keaton to leave the car,
ignore their invitation to talk, and enter the home
where the car was parked.
In similar circumstances, we have concluded that
an officer did not restrain a suspect. In Miller v.
Harget, an officer parked behind a suspect’s parked
car—blocking him from driving away—and then
“turned on his ‘window lights’” and approached the
suspect’s car on foot. 458 F.3d 1251, 1257–58 (11th
Cir. 2006). We reasoned that when the officer quickly
approached the suspect’s car, he “did not do anything
that would appear coercive to a reasonable person.
For example, he did not draw his gun, give any
directions to [the suspect], or activate his roof lights.”
Id. at 1257. Because the officer did not make a “show
of authority that communicated to the individual that
his liberty was restrained,” it was not an
investigatory stop. Id. at 1258 (alterations adopted)
(internal quotation marks omitted). For the same
reason, a reasonable person in Knights’s position
would have felt free to leave; the officers did not

10a
make a show of authority communicating that
Knights was not free to leave.
Knights disagrees and relies on our precedent
United States v. Beck, in which we concluded that
the officers stopped the defendant because of the
proximity between his car and the officers’ car. 602
F.2d 726, 727, 729 (5th Cir. 1979). Two officers pulled
their patrol car alongside Beck and his passenger’s
parked and idling car and “engaged [them] in
conversation” about what they were doing there. Id.
at 727. We explained that “[b]y pulling so close to the
[car], the officers effectively restrained the movement
of Beck and his passenger” and it was clear “that
they were not free to ignore the officers and proceed
on their way.” Id. at 729 (alterations adopted)
(internal quotation marks omitted). Knights argues
that the same is true here because the way in which
the officers parked blocked him from driving away,
and the officers also impeded his ability to walk
away.
We are unpersuaded that Beck controls here. The
officers approached Knights in a meaningfully
different manner. Instead of parking alongside his
car and engaging him in conversation, they parked
near his car—with enough space for him to drive
away—and approached his car to try to speak to him,
without conveying that Knights was required to
comply. Indeed, as we have noted, just a moment
earlier, Knights’s companion obviously felt free to
leave the car, ignore the officer’s invitation to speak
with him, and enter the house.
Knights’s other arguments are also unpersuasive.
He argues that a reasonable person would not have

11a
felt free to walk away because doing so would have
required abandoning his car in a high-crime area.
But we disagree because two officers would have been
near the car, and Knights could have easily returned
to the car as soon as they left. He also repeatedly
mentions that Officer Seligman used a flashlight
when he approached the Oldsmobile. But we fail to
see how a flashlight communicated a show of
authority in these circumstances. A flashlight would
also be used by “an officer approach[ing] a stranded
motorist to offer assistance,” Miller, 458 F.3d at 1258,
or by an ordinary person outside in the middle of the
night. Knights also argues that the presence of two
officers weighs in favor of the encounter being a
seizure, and that “young African-American men feel
that they cannot walk away from police without
risking arrest or bodily harm.” Although the presence
of multiple officers and the age of a suspect may be
relevant factors, Perez, 443 F.3d at 778, the totality
of the circumstances establish that this encounter
was not coercive.
Moreover, unlike age, the race of a suspect is
never a factor in seizure analysis. In our original
opinion, we cited United States v. Mendenhall, 446
U.S. 544, for the proposition that race might be a
relevant factor. But Mendenhall establishes that race
is “not irrelevant” to the voluntariness of a seizure; it
did not address the relevance of race to the existence
of a seizure. Id. at 557–58; see also United States v.
Easley, 911 F.3d 1074, 1081 (10th Cir. 2018)
(recognizing that “the Supreme Court has [n]ever
considered race a relevant factor” in the latter
context). Nor have our sister circuits considered race
in the threshold seizure inquiry. But see United

12a

States v. Smith, 794 F.3d 681, 688 (7th Cir. 2015)
(stating in dicta, based on Mendenhall, that “race is
‘not irrelevant’ to the question of whether a seizure
occurred” but not analyzing its import with respect to
that appeal). Upon further review, we clarify that
race may not be a factor in the threshold seizure
inquiry.
We may not consider race to determine whether a
seizure has occurred. True, as Knights points out,
race can be relevant in other Fourth Amendment
contexts. See, e.g., United States v. Brignoni-Ponce,
422 U.S. 873, 886–87 (1975). For example, we
consider a suspect’s personal characteristics to decide
whether he gave consent to a search or seizure
because that question is subjective. United States v.
Spivey, 861 F.3d 1207, 1215 (11th Cir. 2017). But the
existence of a seizure is an objective question. Craig
v. Singletary, 127 F.3d 1030, 1041 (11th Cir. 1997)
(en banc). We ask whether a reasonable person would
have believed he was not free to leave in the light of
the totality of the circumstances. Id. The
circumstances of the situation are key to this
inquiry—in particular, the police officer’s objective
behavior. Miller, 458 F.3d at 1258 n.4. An objective
test has important virtues: we can readily apply it,
and “law enforcement [can] know ex ante what
conduct implicates the Fourth Amendment.” Easley,
911 F.3d at 1082.
We consider a suspect’s personal characteristics
in our seizure analysis only insofar as they have an
“objectively discernible relationship to a reasonable
person’s understanding of his freedom of action.”
J.D.B. v. North Carolina, 564 U.S. 261, 275 (2011).
For example, we can consider age because both we

13a
and the police can draw “commonsense conclusions”
about the effect of age on a person’s perception of his
freedom to leave that “apply broadly to children as a
class.” Id. at 272 (internal quotation marks omitted).
By contrast, most personal characteristics, including
race, do not lend themselves to objective conclusions.
Knights argues that an objectively discernible
relationship follows from the existence of racial
disparities in the frequency of police stops, arrests,
and other interactions. But even if empirical research
can provide evidence of how individuals of different
demographics have interacted with or perceive the
police, this research also reinforces that perceptions
vary within groups. See, e.g., David K. Kessler, Free

to Leave? An Empirical Look at the Fourth
Amendment’s Seizure Standard, 99 J. Crim. L. &
Criminology 51, 77 & n.151 (2009). “There is no
uniform life experience for persons of color, and there
are surely divergent attitudes toward law
enforcement officers among members of the
population.” Easley, 911 F.3d at 1082.
Even if we could derive uniform—or at least
predominant—attitudes from a characteristic like
race, we have no workable method to translate
general attitudes towards the police into rigorous
analysis of how a reasonable person would
understand his freedom of action in a particular
situation. Take the evidence Knights offers that black
individuals as a group tend to be wary of the police.
How could we consider that tendency, in conjunction
with other factors, in a systematic way? In which
situations is race a relevant factor? How would we
weigh race against countervailing considerations?
Would that weight vary with the race of a police

14a
officer or a particular police department’s history
with its community? With so many open questions
like these, short of assuming that all interactions
between police officers and black individuals are
seizures, we would be left to pure speculation. See
United States v. Alvarez-Sanchez, 774 F.2d 1036,
1040 (11th Cir. 1985) (“Not every encounter between
law enforcement officers and an individual
constitutes a seizure within the meaning of the
[F]ourth [A]mendment.”).
And even if we could devise an objective way to
consider race, we could not apply a race-conscious
reasonable-person test without running afoul of the
Equal Protection Clause. See Easley, 911 F.3d at
1082. Just as “the scope of Fourth Amendment
protection does not vary with the state of mind of the
particular individual being approached,” Chesternut,
486 U.S. at 574, it does not vary with the race of the
individual being approached. Cf. Whren v. United
States, 517 U.S. 806, 813 (1996) (“[T]he Constitution
prohibits selective enforcement of the law based on
considerations such as race.”). So we may not
consider race in deciding whether a seizure has
occurred, and the objective circumstances of
Knights’s encounter with the police remain
dispositive.
IV. CONCLUSION
We AFFIRM Knights’s conviction.

15a
ROSENBAUM, Circuit Judge, concurring in the
judgment:
I agree with the panel that the Equal Protection
Clause precludes courts from considering race as a
relevant factor in evaluating whether a citizen’s
encounter with police is coercive or consensual under
the Fourth Amendment. But I am deeply concerned
that the test we apply in these cases—the “free to
leave”/affirmative-acts-of-coercion test—has become
unworkable and dangerous. For these reasons, I
write to emphasize the perils that ambiguous police
interactions can cause and to respectfully suggest
that the Supreme Court consider adopting a brightline rule requiring officers to clearly advise citizens1
of their right to end a so-called consensual police
encounter.
As I have indicated, the test for a seizure under
the Fourth Amendment purports to turn on whether
a reasonable innocent person in the defendant’s
position at the time of the police interaction would
feel free to leave or otherwise end the encounter.
Florida v. Royer, 460 U.S. 491, 502 (1983) (plurality
opinion); id. at 511–12 (Brennan, J., concurring); see
also Florida v Bostick, 501 U.S. 429, 434 (1991) (“So
long as a reasonable person would feel free ‘to
disregard the police and go about his business,’ the
encounter is consensual . . . .”) (citation omitted); id.
at 438 (explaining that “the ‘reasonable person’ test
presupposes an innocent person”). And that makes
1

I use the term “citizen” in the generic sense, meaning “a
civilian as distinguished from a specialized servant of the state.”
Citizen, Dictionary by Merriam-Webster, https://www.merriamwebster.com/dictionary/citizen (last visited Mar. 1, 2021).

16a
sense: by definition, a person who is truly free to
leave (as the test calls for), of course, has not been
“seized” at all under the Fourth Amendment.
But that description can be a bit misleading.
Under Supreme Court (and Eleventh Circuit)
precedent, even if a reasonable innocent person in the
defendant’s place, in reality, would not have felt “free
to leave,” case law nonetheless can require the
conclusion that he would have. If the officers involved
did not engage in what we have held amount to
sufficient affirmative acts of coercion, then no Fourth
Amendment “seizure” occurs, regardless of whether a
reasonable innocent person would have felt “free to
leave.”
Perhaps the most troubling aspect of this hybrid
“free-to-leave”/affirmative-acts-of-coercion standard
is the Russian Roulette nature of it. The hybrid test
foists on the citizen the complete responsibility for
ascertaining whether the officer is detaining him.
And the citizen must draw his conclusion based on
only his best guess—a conjecture that can carry with
it great risk to both the citizen and the officer.
If the citizen presumes incorrectly that he is free
to leave, the officer may mistake for resistance or
some type of threat the citizen’s efforts to end the
encounter. Then the officer may engage in physical
acts of restraint—or even worse, use deadly force—to
obtain cooperation or neutralize the misperceived
threat from the citizen who did not even realize he
was detained in the first place. And even if the officer
does not engage in physical acts of restraint, he may
arrest the citizen. This system is not ideal for anyone
(including officers), but it can present an especially

17a
tricky dilemma for Black citizens, who studies
indicate historically have disproportionately suffered
violence in law-enforcement encounters.2
The test also fails to account for reality in
another respect: it disregards the actual intentions of
officers. So if the court with the crystal-clear vision of
hindsight concludes based on the totality of the
circumstances that a reasonable citizen would have
felt free to leave, it makes no difference to the
analysis that, as a matter of fact, both the officer and
the citizen believed he was not. The court will
nonetheless hold that the citizen was not “seized”
under
the
Fourth
Amendment.
In
these
circumstances, where no reasonable suspicion
justifies the officer’s intended seizure but the court
concludes that the citizen was not seized, anyway,

2

According to a scientific study published by the National
Academy of Sciences, “Black men are about 2.5 times more
likely to be killed by police over the life course than are white
men,” and “Black women are about 1.4 times more likely to be
killed by police than are white women.” Frank Edwards et al.,

Risk of Being Killed by Police Use of Force in the United States
by Age, Race-ethnicity, and Sex, 116 Proc. Nat’l Acad. Sci.
U.S.A., 16793, 16794 (2019). Similarly, a study printed in the
American Journal of Preventive Medicine found that Black
people were disproportionately victims of lethal force by law
enforcement, “with a fatality rate 2.8 times higher among blacks
than whites.” Sarah DeGue et al., Deaths Due to Use of Lethal

Force by Law Enforcement: Findings from the National Violent
Death Reporting System, 17 U.S. States, 2009–2012, 51
American J. of Preventive Med. S173, S173 (2016). “[B]lack
victims were [also] more likely to be unarmed (14.8%) than
white (9.4%) or Hispanic (5.8%) victims.” Id.

18a
the
Fourth
Amendment’s
protection
unreasonable seizures is but an illusion.

from

A citizen should not have to bet his and the
officer’s well-being on guessing correctly that he is
free to leave. And an officer should not be placed in a
situation where he mistakenly believes he must
engage in physical force because the citizen presumed
incorrectly. Nor should a citizen have to forfeit his
Fourth Amendment right to be free from
unreasonable seizures merely because courts
believe—with the benefit of reflection, untainted by
the palpable pressure of split-second decisionmaking—that the citizen should have felt free to
leave even if he, in fact, was not. Policing is difficult
and dangerous work. But under the hybrid test, so is
being a citizen trying to exercise his Fourth
Amendment right to be free from unreasonable
seizures.
We could remove some of the risk to officers and
citizens by eliminating much of the ambiguity
surrounding so-called consensual encounters. As
some police departments have already discovered and
now require as a standard practice, an officer’s
straightforward announcement of the citizen’s Fourth
Amendment status prevents dangerous misreads,
helping to protect both officers and citizens. So we
could presume an encounter to be consensual where
officers who wish to investigate a citizen but lack
reasonable suspicion advise the citizen at the outset
of the encounter that he is free to decline to speak
with the officers. Conversely, an interaction could
become presumptively non-consensual when the
officer in the same position fails to take this step. Not
only would such a bright-line rule reduce the risk to

19a
officers and citizens in so-called consensual
encounters, it would also help close the gap between
the reality of these situations and how they are
treated under the law.
To be sure, the Supreme Court has, in the past,
rejected similar suggestions of a bright-line rule for
separating
consensual
from
non-consensual
encounters. But the need for such a rule to protect
police and citizens alike has become more obvious
since then.
Below, in Section I, I describe why current
precedent required affirmance of the district court’s
denial of Knights’s suppression motion. Section II
discusses the numerous pitfalls of the current hybrid
“free to leave”/affirmative-acts-of-coercion test. In
Section III, I explain why, as the panel asserts,
equal-protection analysis precludes us from
considering race under the current “free to
leave”/affirmative-acts-of-coercion
test
Fourth
Amendment seizure analysis applies. Then Section
III shows why, regardless of whether courts can
consider race in conducting the “free to
leave”/affirmative-acts-of-coercion test, race can bear
on the reality that the test purports to assess. And
finally, in Section IV I examine how a bright-line test
would help remedy these problems.
I.
The success of Knights’s motion to suppress
hinges on whether a reasonable innocent person in
his position would have felt free to leave or end the
interaction with the two officers. To evaluate this, we
examine the totality of the circumstances, Bostick,
501 U.S. at 437, including whether the officers took

20a
any affirmative coercive actions that would make a
reasonable person feel he is not free to leave. See id.
at 436; Miller v. Harget, 458 F.3d 1251, 1258 (11th
Cir. 2006) (explaining that the test is whether the
officers “exhibited coercion that would make [the
defendant] feel he was not free to leave”).
Our panel opinion highlights several factors
suggesting that Knights’s encounter with the police
was consensual. See Panel Op. at 9. It focuses largely
on what did not occur during the incident: the
uniformed officers did not activate their patrol-car
lights and siren3, display their weapons, physically
touch Knights, immediately speak to Knights as they
approached him, nor physically block his car with
their cruiser (although they made it more difficult to
drive away). See id.
Perhaps the strongest factor suggesting that a
reasonable person would have felt free to leave was
that Hozell Keaton, who had been leaning into the
open passenger-side door of the car where Knights
had the driver’s door open, actually left the car area
just as he saw the officers park their patrol car in
front of Keaton’s house. Even after Officer Samuel
got out of the cruiser and tried to get Keaton’s
attention, Keaton, who was already near the front
door, ignored him, continued to walk away, and

3

The magistrate judge’s factual findings entered after an
evidentiary hearing do not indicate that she found that the
officers activated their lights, although Knights testified that,
“[t]o [his] knowledge,” the officers did. Knights did not challenge
the magistrate judge’s factual finding. And though on appeal, he
mentioned this testimony from the hearing, he did not argue
that the officers activated their lights.

21a
entered the house. That no officer took further action
with respect to Keaton might have suggested to a
reasonable person in Knights’s position that he could
have also avoided the interaction with officers.
But once Keaton was inside the home, Knights
faced different circumstances than Keaton had a
moment earlier. When Keaton went into his home,
Knights got into the car and closed the doors. Then
Officer Seligman approached Knights as he sat there.
The situation left Knights with, at best, three
potential options to retreat from the police encounter:
(1) open his car door and walk past one officer
standing directly in his path, as he tried to decline to
speak with both officers; (2) attempt to start and
maneuver his car, which the officers knew had just
failed to turn over, around the officers and their
cruiser—a task the magistrate judge found Knights
“would have had significant difficulty doing . . .
without hitting the patrol car or an officer”; or (3)
remain in the dead car with the doors closed.
Although Knights chose to remain in the car, the
officers nonetheless walked closer to his vehicle until
one knocked on the window. Knights’s efforts to
signal that he was not interested in chatting (by
shutting himself in his car) did not appear to work.
Besides that, Knights knew the officers viewed the
neighborhood as “high crime,” and it was dark at one
in the morning—factors that can understandably
amplify an officer’s perception of a threat, whether or
not a real threat existed. And since the officers were
aware that the car Knights was in would not start, no
reasonable person in Knights’s position would have
believed it was realistically possible to leave the car

22a
sitting in the driveway and walk away without direct
police interaction.
Based on these circumstances, it’s hard to say
that a reasonable innocent person in Knights’s place
truly would have felt free to try to end the encounter
with the officers. But a finding that a reasonable
person would not have felt free to leave is not enough
under current case law.
Without an affirmative coercive act by an officer,
our precedent requires the conclusion that Knights
was not seized. Indeed, “[t]his Court has decided on
several occasions that a police officer does not seize
an individual merely by approaching a person in a
parked car,” even in some cases when the officers
block the parked car from leaving. Miller, 458 F.3d at
1257; see also United States v. Baker, 290 F.3d 1276,
1278-79 (11th Cir. 2002).4 And because no other
4

The magistrate judge’s report and recommendation relied
on United States v. Beck, 602 F.2d 726 (5th Cir. 1979), to
conclude that the officers seized Knights when they parked their
cruiser in a way that made it more difficult for Knights to leave
the scene in his car. ECF No. 51 at 9-11. In Beck, our
predecessor Court determined that when officers parked next to
the defendant’s car in that case, “‘they clearly took the sort of
action contemplated by Terry v. Ohio’ and its definition of a
‘stop.’” Id. at 10 (quoting Beck, 602 F.2d at 728). The problem is
that Beck was issued in 1979, before the Supreme Court decided
Bostick, 501 U.S. 429, in 1991, which put a gloss on the “free to
leave” test. So we are bound by the post-Bostick case law that
applies that gloss. In Bostick, two armed officers with badges
boarded a bus that was at a stopover during a lengthy journey.
Id. at 431. They asked the defendant to inspect his ticket and
identification and then to search his luggage. Id. at 431-32. They
found contraband, and the defendant sought to suppress it as
the product of an unreasonable seizure. Id. In discussing
considerations that the lower court needed to make on remand

23a
affirmatively coercive factors identified in our case
law appear in the record before us, our precedent
bound us to conclude that Knights’s interaction with
police was “consensual” and to affirm the denial of his
motion to suppress. See United States v. De La Rosa,
922 F.2d 675, 678 (listing coercive factors).
II.
The outcome in Knights’s case and others like it
can be unsatisfying: when we hold that a defendant
was not “seized” for Fourth Amendment purposes,
even though—if we are being realistic—we know that
a reasonable person in his place likely would not
have felt free to leave, the Fourth Amendment’s
protections do not feel entirely real. See, e.g., Bostick,
to determine whether the defendant had been seized, the Court
stated that “when the person is seated on a bus and has no
desire to leave, the degree to which a reasonable person would
feel that he or she could leave is not an accurate measure of the
coercive effect of the encounter.” Id. at 435-36. The Court
further opined that the fact that the defendant did not feel free
to leave while sitting on the bus “says nothing about whether or
not the police conduct at issue was coercive.” Id. at 436. The
Court distinguished the bus situation from a scenario in which a
person is freely walking down the street and “it makes sense to
inquire whether a reasonable person would feel free to continue
walking.” Id. Since Bostick issued, this Court has held that
when an armed officer approaches a person in a parked car, that
does not, in and of itself, cause a seizure. See, e.g., Miller, 458
F.3d at 1257-58; Baker, 290 F.3d at 1279 (officer approached
vehicle stopped in traffic). And in Miller, even though the officer
parked behind the subject car, thereby wholly preventing it from
leaving, this Court concluded no Fourth Amendment seizure
had occurred, since the citizen there did not demonstrate an
intent to drive away. Id. at 1257. Miller remains good law in
this Circuit, so we are bound by it. And here, the officers knew
the car would not start.

24a
501 U.S. at 436 (concluding that “the mere fact that
Bostick did not feel free to leave the bus does not
mean that the police seized him”); United States v.
Thompson, 941 F.2d 66, 68, 70 (2d Cir. 1991) (holding
that the defendant was not seized even though she
testified “she did not feel free to leave when the
officers began to question her”).
Knights’s case is emblematic of the issues that
plague the hybrid “free to leave”/affirmative-acts-ofcoercion test: (1) the test ignores the inherent
coerciveness of being approached by armed lawenforcement agents, a situation that most people
don’t feel free to leave, even in the absence of
affirmative acts of coercion; (2) it ignores the officer’s
actual intentions in stopping the defendant; and (3) it
unfairly imposes on the citizen the entire burden of
correctly guessing whether, under the law, an
encounter is “consensual,” as well as the
consequences of that decision.
First, I begin with the test’s failure to account for
the inherent coerciveness of being approached by an
armed law-enforcement agent. This defect increases
the likelihood that the test will fail to accurately
identify when, in reality, a reasonable citizen would
not feel free to leave a police encounter.
Within the comfort of our chambers, we imagine
how we think a “reasonable person” like Knights
would feel in a “high-crime” neighborhood as two
armed officers approach in the wee hours of the
morning. Commentators have observed that when we
speculate on whether a reasonable innocent person
would feel free to leave a given encounter, we tend to
“bas[e] decision[s] on ‘minute factual differences’ that

25a
courts have determined to be crucial, but which
[arguably] bear little relationship to the individual’s
actual freedom to walk away.” Josephine Ross, Can

Social Science Defeat A Legal Fiction? Challenging
Unlawful Stops Under the Fourth Amendment, 18
Wash. & Lee J. Civ. Rts. & Soc. Just. 315, 326 (2012)
(quoting Edwin J. Butterfoss, Bright Line Seizures:

The Need for Clarity in Determining When Fourth
Amendment Activity Begins, 79 J. Crim. L. &
Criminology 437, 439-40 (1988)). So our speculation
does not always match reality.
In fact, studies demonstrate that most people do
not feel free to terminate an officer-initiated
encounter—even in the absence of any affirmative
coercive acts. For example, Professor David K.
Kessler surveyed more than 400 randomly selected
Boston residents about whether they would feel free
to leave when approached on a bus or on the sidewalk
by law enforcement. See David K. Kessler, Free to

Leave? An Empirical Look at the Fourth
Amendment's Seizure Standard, 99 J. Crim. L. &
Criminology 51, 52 (2009). The questionnaire posed
the question innocuously: “You are walking on the
sidewalk [or “You are riding the bus”]. A police officer
comes up to you and says, ‘I have a few questions to
ask you.’ Assume you do not want to talk to the
officer.” Id. at App. A. Then the respondent rated on a
scale of 1 to 5 “how free [the respondent] would feel to
walk away without answering or to decline to talk
with the police officer,” with 1 indicating “[n]ot free to
leave or say no,” 3 meaning “[s]omewhat free to leave
or say no,” and 5 indicating “[c]ompletely free to leave
or say no.” Id.

26a
Almost 80% selected 3 or lower, including about
50% who selected 1 or 2. Id. at 74-75. And those
results likely overestimate how often people feel free
to leave when interacting with the police because, as
Kessler explained, “[t]he coercive pressures
experienced when actually dealing with a police
officer are likely to make one feel less free than when
one is standing in a train station” conversing with a
student researcher. Id. at 80.
And while the Kessler study demonstrates that
the vast majority of people—whether white or
Black—do not feel free to leave when approached by
police, as I note in Section III of this concurrence,
other studies and anecdotal evidence show this is
especially true for Black individuals.
The current test’s failure to account for the
approaching
officer’s
actual
intentions
only
compounds these deficiencies. See Miller, 458 F.3d at
1258 n.4. Under the current test, courts can and do
determine that a person was free to leave even if, as a
matter of fact, the officer who stopped that individual
thought he was not. In that scenario, the officer may
have, in reality, detained the individual without the
necessary reasonable suspicion. Yet the law says no
detainment has occurred, making the Fourth
Amendment’s protection against unreasonable
seizures illusory. In that sense, the test operates as a
legal fiction—a seizure in fact is not a seizure under
the law. So police can initiate “‘encounters’ in the
hope that criminal activity will be revealed” and be
“secure in the knowledge that these encounters will
remain beyond the purview of the Fourth
Amendment.” Bennett Capers, On Justitia, Race,

27a

Gender, and Blindness, 12 Mich. J. Race & L. 203,
221 (2006).
Finally, the hybrid test makes the citizen
shoulder the entire burden of determining whether a
stop has occurred. This framework “assumes that the
choice to decline a police request is unburdened, that
no negative consequences will accompany a failure to
comply, and therefore that individuals will readily
assume” that they may walk away. Margaret
Raymond, The Right to Refuse and the Obligation to

Comply: Challenging the Gamesmanship Model of
Criminal Procedure, 54 Buff. L. Rev. 1483, 1502
(2007). But “[r]easonable people are sometimes risk
averse . . . and there are several downside risks
involved in disregarding police directions.” Id. at
1503.
III.
And this is all the more true for Black citizens.
Yet today’s panel opinion concludes that it must
reject the proposition that race may be considered in
determining whether a Fourth Amendment seizure
occurs. As I explain below, I agree that the law
requires this answer. But studies suggest that Black
and white individuals do not equally feel “free to
leave” citizen-police encounters. So it is worth
considering why and what can be done to improve the
ability of people of all races to feel equally able to
exercise their Fourth Amendment rights to leave a
legally consensual citizen-police encounter.
I begin with the panel opinion’s rejection of race
as a factor in the Fourth Amendment test for
determining whether a seizure has occurred. The
panel opinion reaches its conclusion for two reasons.

28a
First, the panel opinion asserts that we cannot
consider race because the test for ascertaining
whether a Fourth Amendment seizure occurs is an
objective one, and unlike with age, we cannot “draw
‘commonsense conclusions’ about the effect of [race]
on a person’s perception of his freedom to leave that
‘apply broadly to [members of a given race] as a
class.’” Panel Op. at 13. Second, the panel opinion
determines that equal-protection analysis prevents
us from accounting for race in an objective (as
opposed to subjective) analysis. I do not consider the
validity of the panel’s first conclusion because,
regardless, I agree that it is right about its second.
The Fifth Amendment’s Due Process Clause
includes an equal-protection component. See Bolling
v. Sharpe, 347 U.S. 497, 498-500 (1954). Under it, we
must
analyze
racial
classifications—including
classifications that seek to remedy racial inequality—
using strict scrutiny. Johnson v. California, 543 U.S.
499, 505 (2005).5 To satisfy strict scrutiny, the party
seeking to adopt a racial classification must show
that the racial classification at issue furthers a
compelling interest and that the rule based on that
racial classification is narrowly tailored to achieve
that compelling interest. See id. As relevant here, I
would find a compelling interest exists in ensuring
that all citizens enjoy the same ability to assert their
Fourth
Amendment
rights
in
citizen-police
encounters, regardless of their race. Because the
5

Although Johnson involves the Fourteenth Amendment’s
Equal Protection Clause, the same analysis applies to Fifth
Amendment equal-protection analysis of laws that classify
based on race. See Adarand Constructors, Inc. v. Peña, 515 U.S.
200, 224 (1995).

29a
current test for whether a seizure occurs turns on
whether a reasonable innocent person in the citizen’s
place would feel “free to leave” a police interaction,
it’s important that the hypothetical “reasonable
innocent person” would feel equally “free to leave,”
regardless of her race.
But as a matter of the commonsense reality of
police-citizen interactions, Black individuals from
every background have long expressed that race can
and does affect whether a citizen feels “free to leave”
a police encounter. Of course, we wish race were not
relevant. But wishing does not make it so. See
Washington v. Lambert, 98 F.3d 1181, 1187 (9th Cir.
1996) (explaining that “as a practical matter neither
society nor our enforcement of the laws is yet colorblind”). The evidence demonstrates that race can
matter during interactions with the police.
Black Americans on the whole are 2.5 times more
likely to be shot and killed by police officers than
white Americans.6 Wesley Lowery, Aren’t More White

People than Black People Killed by Police? Yes, but
No,
Wash.
Post
(July
11,
2016),
https://www.washingtonpost.com/news/post-nation/
wp/2016/07/11/arent-more-white-people-than-blackpeople-killed-by-police-yes-but-no/; see also supra
note 2; Radley Balko, There’s Overwhelming

6

In fact, studies demonstrate that the disparities in force
used against Black and Latinx individuals, on the one hand, and
white ones, on the other, are even higher when we account for,
among other things, “selection bias” in the initial decisions to
stop individuals. See generally Dean Knox et al., Administrative
Records Mask Racially Biased Policing, 114 Am. Pol. Sci. Rev.
619 (2020).

30a

Evidence that the Criminal Justice System is Racist.
Here’s the Proof, Wash. Post (June 10, 2020),
https://www.washingtonpost.com/graphics/2020/opini
ons/systemic-racism-police-evidence-criminal-justicesystem/ (collecting evidence on racial disparities in
police shootings and use-of-force incidents); Jamison
v. McClendon, 476 F. Supp. 3d 386, 390-91 nn. 1-19
(S.D. Miss. Aug. 4, 2020) (cataloguing some Black
Americans’ deaths in police encounters). The pattern
is even more pronounced with respect to young Black
men between the ages of 15 and 19: in a recent study,
they were found to be 21 times more likely than their
white counterparts to be killed during police
encounters. Ryan Gabrielson et al., Deadly Force, in
Black and White, ProPublica (Oct. 10, 2014),
https://www.propublica.org/article/deadly-force-inblack-and-white. So it is no wonder that “Black male
teens still report a fear of police and a serious
concern for their personal safety and mortality in the
presence of police officers.” Jamison, 476 F. Supp. 3d
at 414-15 (internal quotation marks omitted).
When we consider unarmed individuals, Black
Americans are five times more likely than white
Americans to be killed by police. Lowery, supra. And
these disproportionate rates of deadly encounters
persist, despite findings that, even accounting for
threat level, “[B]lack Americans who are fatally shot
by police are no more likely to be posing an imminent
lethal threat to the officers at the moment they are
killed than white Americans fatally shot by police.”
Id.
Because
of
these
circumstances,
Black
Americans’ lived experiences make them materially
less likely than white Americans to believe they have

31a
the freedom to leave an interaction with the police.
Indeed, “the dynamics surrounding an encounter
between a police officer and a black [citizen] are quite
different from those that surround an encounter
between an officer and the so-called average,
reasonable person.” Tracey Maclin, “Black and Blue

Encounters”—Some Preliminary Thoughts About
Fourth Amendment Seizures: Should Race Matter?,
26 Val. U.L. Rev. 243, 250 (1991).
For Black citizens, the fear of violence often
overlays the entire law-enforcement encounter.
Because of these circumstances, commentators have
concluded that Black people have “internalized racial
obedience toward, and fear of, the police.” Devon W.
Carbado, (E)racing the Fourth Amendment, 100
Mich. L. Rev. 946, 966 (2002). “They work their
identities in response to, and in an attempt to
preempt, law enforcement discipline”; “[i]t is intended
to signal acquiescence and respectability.” Id.; see
also Capers, supra, at 221 n.90. Black people often
tread more carefully around law enforcement than
the Court’s hypothetical reasonable person does
because of the grave awareness that a misstep or
discerned disrespectful word may cause the officer to
misperceive a threat and escalate an encounter into a
physical one.7
7

See Ross, supra, at 318 (“When I told a class of students
at Howard University School of Law that they can walk away
when police officers approach to ask them questions, they
rebelled. ‘Not in my neighborhood,’ said one student. ‘You can
get yourself arrested,’ another law student said. ‘Or shot,’ added
another. . . . One student in my class who was a former police
officer declared that it would be irresponsible for us to tell young
people that they can walk away from police.”).

32a
Black community members have explained that,
for them, the “whole goal” of a police encounter is to
“just kind of stay alive. Just make it to the next day.”

A Black Mother and Son on “The Talk”: ‘When I get
Pulled Over by a Police Officer, I Do Not Have Any
Rights ’,
KJZZ
(June
11,
2020),
https://kjzz.org/content/1591087/black-mother-andson-talk-when-i-get-pulled-over-police-officer-i-donot-have-any; see also Carbado, (E)racing, supra, at
953-54. Towards that end, parents have long found it
necessary to have “The Talk”8 with their Black
children to try to help them keep safe when they
encounter the police. When a citizen perceives
staying alive as the “whole goal” of a police
interaction, it is difficult to say that an encounter is
8

Generations of Black children are familiar with “The
Talk.” Utah v. Strieff, 136 S. Ct. 2056, 2070 (2016) (Sotomayor,
J., dissenting) (describing “The Talk”); United States v. Black,
707 F.3d 531, 541 (4th Cir. 2013) (same). Generally, parents
have “The Talk” with their kids about how to interact with law
enforcement so no officer will have any reason to misperceive
them as a threat and take harmful or fatal action against them.
So for example, Black children are taught that, if stopped by an
officer while in their car, they should roll down all car windows,
place both hands open and in plain view (or on the steering
wheel), keep their composure and be perfectly respectful even if
they feel the officer is mistreating them, ask for permission
before moving their hands, and comply with all the officer’s
requests. If, like I, a reader has never experienced “The Talk”
firsthand, watching Black Parents Explain How to Deal with
YouTube
(Feb.
6,
2017),
the
Police,
https://www.youtube.com/watch?v=coryt8IZ-DE, or something
similar, though distressing, is extremely educational and
important. And in my view, it is even more so for judges who
must place themselves in the shoes of reasonable innocent
citizens under the hybrid “free to leave”/affirmative-acts-ofcoercion test.

33a
truly “consensual.” And there is no real question that
Black citizens view themselves as sharing a common
historic experience concerning police encounters.
That is why generations of children have had to grow
up with “the Talk.” And it is why even a Black United
States Senator and a Black former President of the
United States acknowledge the same shared
experience as Black citizens from all other walks of
life. See Tim Scott, GOP Sen. Tim Scott: I’ve Choked

on Fear When Stopped by Police. We Need the
JUSTICE Act, USA TODAY (June 18, 2020),
https://www.msn.com/en-us/news/opinion/gop-sentim-scott-ive-choked-on-fear-when-stopped-by-policewe-need-the-justice-act/ar-BB15FLvH (“I, like many
other Black Americans, have found myself choking on
my own fears and disbelief when faced with the
realities of an encounter with law enforcement.”);
Barack Obama, A Promised Land, at 395-96 (2020)
(“Hearing about what had happened to [Professor
Henry Louis] Gates[, Jr.], I had found myself almost
involuntarily conducting a quick inventory of my own
experiences. The multiple occasions when I’d been
asked for my student ID while walking to the library
on Columbia’s campus, something that never seemed
to happen to my white classmates. The unmerited
traffic stops while visiting certain ‘nice’ Chicago
neighborhoods. Being followed around by department
store security guards while doing my Christmas
shopping. . . . For just about every Black man in the
country, and every woman who loved a Black man,
and every parent of a Black boy, it was not a matter
of paranoia or ‘playing the race card’ or disrespecting
law enforcement to conclude that whatever else had
happened that day in Cambridge, this much was
almost certainly true: A wealthy, famous, five-foot-

34a
six, 140-pound, fifty-eight-year-old white Harvard
professor who walked with a cane because of a
childhood leg injury would not have been handcuffed
and taken down to the station merely for being rude
to a cop who’d forced him to produce some form of
identification while standing on his own damn
property.”).
Indeed, the evidence shows that Black Americans
share concerns about interactions with the police
“regardless of station in life or standing in the
community.” Jamison, 476 F. Supp. 3d at 414-15
(collecting examples). So Black citizens are less likely
to feel free to walk away from the police and exercise
their rights, see Devon W. Carbado, From Stopping

Black People to Killing Black People: The Fourth
Amendment Pathways to Police Violence, 105 Calif.
L. Rev. 125, 142 (2017) (“Black people, across
intraracial differences, are likely to feel seized earlier
in the police interaction than whites, likely to feel
‘more’ seized in any given moment, and less likely to
know or feel empowered to exercise their rights.”),
under circumstances where white citizens would
have no such qualms.
Even the Supreme Court has suggested as much.
As the panel opinion acknowledges, the Court has
held that race can be relevant when analyzing the
related but subjectively analyzed Fourth Amendment
question of whether a suspect has voluntarily
consented to a search or seizure. United States v.
Mendenhall, 446 U.S. 544, 558 (1980).
It’s worth considering why. In my view, the
Supreme Court accounts for race in this subjective
test because it has perceived that, as a result of Black

35a
Americans’ shared historic experience in police
encounters, purported “consent” is less likely to be
truly voluntary when attributed to Black individuals
than to white ones. And if that is so, it is difficult to
understand why that same shared experience would
not be equally relevant to whether a Black citizen
truly feels “free to leave” a police encounter—
especially because the Supreme Court has explicitly
stated that the seizure test and voluntariness test
“turn on very similar facts.” United States v.
Drayton, 536 U.S. 194, 206 (2002). As the Court has
emphasized, “the question of voluntariness pervades
both . . . inquiries.” Id.
So it seems pretty clear that a shared historical
Black experience can cause Black Americans to view
their ability to leave a police interaction very
differently than white Americans. All Americans—
regardless of race—have a right to the equal
protection of the law and to the ability to exercise
their constitutional rights. So I would conclude that
the need for citizens to in fact enjoy an equal ability
to assert their Fourth Amendment rights in citizenpolice encounters represents a compelling interest.
But that is not the end of the equal-protection
analysis. Rather, we must consider whether
accounting for race in the objective test for
determining whether a Fourth Amendment seizure
has occurred is narrowly tailored to address the
compelling interest at issue here. A racial
classification will satisfy the narrow-tailoring
requirement only if “race-neutral alternatives that
are both available and workable do not suffice.”
Fisher v. University of Texas at Austin, 136 S. Ct.
2198, 2208 (2016) (citation and internal quotation

36a
marks omitted). And that’s where considering race
runs into a constitutional problem. It is not narrowly
tailored.
That is so because a more narrowly tailored
solution that is race-neutral exists: the Supreme
Court could institute a bright-line rule that would
require officers to advise citizens whether they are
free to leave before questioning begins. See infra
Section IV. Because consideration of race in the
objective Fourth Amendment analysis cannot survive
strict scrutiny, we cannot account for race under the
current “free to leave”/affirmative-acts-of-coercion
test.
Yet studies indicate there’s no real question that
Black citizens are not well covered by the “free to
leave”/affirmative-acts-of-coercion test’s hypothetical
reasonable person. Put simply, citizens who believe
that when they “question the authority of the police,
the response is often swift and violent,” Maclin,
supra, at 253; Commonwealth v. Hart, 695 N.E.2d
226, 228 (Mass. App. Ct. 1998) (“[H]istorically . . .
blacks who have walked, run, or raced away from
inquisitive police officers have ended up beaten and
battered and sometimes dead.”), do not view
themselves as having a choice to leave or end a police
encounter in a situation like Knights faced. Rather,
they consider themselves seized.
In short, courts, citizens, and police continue to
wrestle with the inherent ambiguity in so-called
consensual stops—sometimes with devastating
results. We can do better. So I turn to a proposed
solution to remove this ambiguity, to protect citizens
and officers alike during intended consensual

37a
encounters, and to reaffirm the Fourth Amendment’s
guarantee against unreasonable seizures.
IV.
The troubles with the “free to leave”/affirmativeacts-of-coercion test I have outlined above stem from
the inherent ambiguity in so-called consensual
encounters. Removing that ambiguity would help
render so-called consensual encounters safer for
everyone. It would also assist in preserving Fourth
Amendment rights.
To accomplish this, the Supreme Court could
require officers who wish to engage in consensual
interactions—at the very least with respect to those
individuals an officer wants, without reasonable
suspicion, to investigate in some way—to, at the
outset, inform the approached individual that he or
she may decline or end the interaction without
penalty. While not perfect, this solution has the
benefit of establishing a bright line so both citizens
and officers know that any continued interaction is
presumed consensual.
Below in Section IV.A, I explain why the Court
should reconsider adopting a bright-line rule to
evaluate police-citizen encounters under the Fourth
Amendment. In Section IV.B, I analogize this idea to
the approach the Court has taken in the Fifth
Amendment context and show how a similar rule in
the Fourth Amendment context would begin to
remedy the problems identified in Sections II and III.
And in Section IV.C, I address the criticisms of
adopting a bright-line rule.

38a
A.
I am aware the Supreme Court has previously
dismissed this and other courts’ suggestions to adopt
a Fourth Amendment version of the Miranda rule for
dividing
consensual
from
non-consensual
interactions. More specifically, in a pair of cases, we
opined that when the totality of the circumstances
suggests—but does not establish—that the citizen is
not free to leave, officers must inform citizens of their
rights. United States v. Guapi, 144 F.3d 1393, 1393–
95 (11th Cir. 1998); United States v. Washington, 151
F.3d 1354, 1355–57 (11th Cir. 1998).9 The Supreme
Court rejected that approach, explaining that the
touchstone of Fourth Amendment jurisprudence has
always been a reasonableness assessment. Drayton,
536 U.S. at 201–203. Instead, the Court reaffirmed
that the totality-of-the-circumstances test governs
whether a reasonable person would have felt free to
terminate the encounter. Id. But many years have
passed since we last suggested a bright-line test
should identify whether so-called consent is in fact
consensual in any given circumstances. During that
time, the “free to leave”/affirmative-acts-of-coercion
test has continued to create unnecessary risks to
officers and the citizens with whom they speak, while
chipping away people’s confidence in their Fourth
Amendment rights.
And what is the value of continuing to make
people guess? Whatever it may be, does it outweigh
the dangers to officers and citizens alike caused by

9

Both abrogated by United States v. Drayton, 536 U.S. 194
(2002).

39a
requiring citizens to guess whether they are “free to
leave”? I think not.
With these thoughts in mind, I respectfully
propose that we proceed from the premise that the
“free to leave” test—a seizure occurs when a
reasonable innocent person would not feel free to
leave—should mean what it says. After all, a nation
governed by the rule of law derives its legitimacy in
part from the transparency of the law and the ability
of the citizens to understand and rely upon that law.
To further that principle, the Court should once
again consider adopting a bright-line rule to make
the “free to leave” test correspond with reality when
no reasonable suspicion supports a stop.
B.
The Supreme Court has successfully adopted a
bright-line rule in the Fifth Amendment context.
Miranda v. Arizona, 384 U.S. 436 (1966). Much like
the “free to leave” test, the pre-Miranda
voluntariness test considered nearly every factor. Id.
at 508 (1966) (Harlan, J., dissenting) (collecting
cases).
But in Miranda, the Court abandoned that
totality-of-the-circumstances-based test in favor of
the now-familiar rule requiring a person in custody to
“first be informed in clear and unequivocal terms that
he has the right to remain silent.” Id. at 467-68.
Among other things, the Court held that “such a
warning is an absolute prerequisite in overcoming
the inherent pressures of the interrogation
atmosphere.” Id. at 468. So the Court determined it
would no longer “pause to inquire in individual cases
whether the defendant was aware of his rights

40a
without a warning being given.” Id. It further noted
that the explicit “warning will show the individual
that his interrogators are prepared to recognize his
privilege should he choose to exercise it.” Id.
A bright-line rule for ascertaining whether an
encounter is consensual or whether instead a seizure
has occurred under the Fourth Amendment would
work much like the Miranda rule. If an officer fails to
inform a citizen at the outset of the interaction that
the citizen is free to decline the interaction, a “brightline legal presumption” will arise that a seizure has
occurred under the Fourth Amendment. See Oregon
v. Elstad, 470 U.S. 298, 306 n.1 (1985) (“A Miranda
violation does not constitute coercion but rather
affords a bright-line, legal presumption of coercion,
requiring suppression of all unwarned statements.”).
Conversely, if an officer does give the warning, a
presumption follows that the interaction was
consensual (and therefore not a seizure), unless
evidence shows that the citizen was, in fact, not free
to leave. Berkemer v. McCarty, 468 U.S. 420, 433
n.20 (1984) (“We do not suggest that compliance with
Miranda conclusively establishes the voluntariness of
a subsequent confession.”).
A Miranda-type solution neatly fits Fourth
Amendment consensual encounters. While the Fifth
Amendment privilege not to incriminate oneself
differs from the right under the Fourth Amendment
not to be seized except when the seizure is
“reasonable” (and therefore the corresponding right
to decline to interact with an officer unless one has
been “reasonabl[y]” seized), applying a totality-of-thecircumstances test raises the same practical
problems in both contexts. In fact, many of the

41a
difficulties with the old Fifth Amendment totality-ofthe-circumstances test that the Supreme Court
identified in Miranda are troubles that beset the
totality-of-the-circumstances
hybrid
“free
to
leave”/affirmative-acts-of-coercion test.
First, judges determining voluntariness in the
pre-Miranda era could not experience firsthand “the
inherent pressures of the interrogation atmosphere.”
See George C. Thomas III, The End of the Road for

Miranda v. Arizona?: On the History and Future of
Rules for Police Interrogation, 37 Am. Crim. L. Rev.
1, 7 (2000) (“How would a court, months or years
later, be able to discern whether a confession
sufficiently manifested the will of the suspect?”). The
same challenge arises when courts try to ascertain
whether the hypothetical reasonable innocent person
feels free to leave. Courts are too removed from the
actual circumstances and pressures a reasonable
person in the citizen’s place would have felt in
interacting with police.
Second and somewhat relatedly, the pre-Miranda
voluntariness test, like the hybrid test, required
assessments that could “never be more than
speculation . . . .” Miranda, 384 U.S. at 468-69. That
speculation led in pre-Miranda Fifth Amendment
cases to unpredictable results, making it difficult for
citizens, police officers, and courts to know in the
moment whether an interrogation would later be
considered consensual. Courts’ necessary speculation
under the current hybrid test causes the same
unpredictability problem for citizens and officers in
the consensual-police-encounter realm.

42a
Third, employing an artificial reasonable person
as
the
benchmark
arguably
tended
to
disproportionately disadvantage Black individuals
under both the voluntariness and the “free to leave”
tests. Although the Miranda opinion does not focus
on race, Chief Justice Warren originally expressed
this concern when he authored Miranda. Indeed, “an
early draft of Warren’s Miranda opinion had called
attention to the large number of black defendants
who had been subjected to physical brutality by
Southern police.” Yale Kamisar, On the Fortieth

Anniversary of the Miranda Case: Why We Needed
It, How We Got It—and What Happened to It, 5 Ohio
St. J. Crim. L. 163, 175 (2007).10
Fourth, the pre-Miranda voluntariness test,
much like the “free to leave”/affirmative-acts-ofcoercion test, could “exact[] a heavy toll on individual
liberty and trade[] on the weakness of individuals.”
Miranda, 384 U.S. at 455. The voluntariness test also
failed to “dispel the compulsion inherent in custodial
surroundings . . . .” Id. at 458. Similarly, as I have
explained, the Fourth Amendment’s hybrid test
continues to ignore the inherent coerciveness of police
encounters, a problem that is particularly acute for
Black citizens.
As with Miranda, a bright-line rule requiring law
enforcement to inform an approached person of that
individual’s right to decline the interaction would go
10

Chief Justice Warren dropped this language after Justice
Brennan suggested that poverty, more than race, characterized
those who suffered police brutality. Id. Whatever the specific
inequality, a constitutional rule that fails to reflect the realities
of society and creates inequitable results deserves a second look.

43a
a long way towards remedying many of these
problems. No longer would we spend time speculating
as to just how difficult it would have been for Knights
to have maneuvered his car around the officers and
their cruiser (if his car were not dead). Nor would we
be called upon to decide whether using a flashlight in
the dark makes the encounter more coercive. Or
whether the presence of two officers versus one or
three would have made Knights feel less free to leave.
We also would not be required to sweep under the
rug the officers’ actual intentions or the real fear that
many reasonable people often feel in police
encounters. Instead, we would simply ask, “Did the
officers inform the defendant of his right to leave?”
And “Did the defendant attempt to exercise his right
to do so?”
An explicit “warning will show the individual
that [the police] are prepared to recognize his [right
to walk away] should he choose to exercise it.”
Miranda, 384 U.S. at 468. As a matter of safety to the
officer and to the citizen, that knowledge and clarity
is extremely important. Here, ambiguity can result in
physical injury and even death. The Miranda brightline approach is a solution that would help minimize
many of these problems.
C.
Despite the overwhelming benefits of a brightline rule, some might argue that requiring prequestioning warnings is inappropriate in the Fourth
Amendment context. Others might dismiss prequestioning warnings in the Fourth Amendment
context out of a concern that they might hinder
legitimate law-enforcement activity. As they were

44a
with Miranda warnings,
ultimately unavailing.

these

criticisms

are

I begin with the criticism that employing
Miranda-like warnings is unnecessary because the
rights protected by the Fourth Amendment differ
from those protected by the Fifth Amendment. The
Supreme Court relied on this distinction as a reason,
among others, to reject requiring a warning in the
consent-search context. Schneckloth v. Bustamonte,
412 U.S. 218, 241–42, 249 (1973). There, the Court
reasoned that trial rights, such as the Fifth
Amendment right not to make a compelled
statement, are necessary to ensure an “unfair result”
is not reached at trial. Id. at 241-42. But the Court
distinguished the Fourth Amendment as a device
that protects privacy.
Yet the Fifth Amendment right against selfincrimination also helps secure other important
constitutional values that other constitutional
provisions, including the Fourth Amendment, guard.
In fact, Miranda critically noted that the Fifth
Amendment privilege protects privacy and “the
respect a government . . . must accord to the dignity
and integrity of its citizens.” Miranda, 384 U.S. at
460. These values apply with equal force in the
Fourth Amendment context.
Not only that, but the Fourth Amendment’s
protection of an individual’s privacy from government
intrusion also affects the ability of courts to maintain
a fair trial. The Court adopted the exclusionary rule
primarily to protect the rights enshrined in the
Fourth Amendment. If evidence illegally obtained can
be used at trial, then “the protection of the Fourth

45a
Amendment . . . is of no value[.]” Weeks v. United
States, 232 U.S. 383, 393 (1914), overruled on other
grounds by Mapp v. Ohio, 367 U.S. 643 (1961). A fair
trial is not one that can be “aided by the sacrifice of
[the Fourth Amendment’s] great principles . . . .” Id.
A fair trial demands putting the government to its
paces by requiring the government to “produce the
evidence against [the defendant] by its own
independent labors,” Miranda, 384 U.S. at 460, not
by obtaining evidence through illegal means or
compulsion.
A bright-line rule here is also not inconsistent
with the Fourth Amendment’s reasonableness
approach. In fact, we observe bright-line types of
rules in assessing whether searches without
warrants are reasonable. For example, a search
warrant is categorically unnecessary in certain
exigent circumstances. See Missouri v. McNeely, 569
U.S. 141, 150 n.3 (2013) (citing California v. Acevedo,
500 U.S. 565, 569–570, (1991) (automobile exception);
United States v. Robinson, 414 U.S. 218, 224–235,
(1973) (searches of a person incident to a lawful
arrest)) (“We have recognized a limited class of
traditional exceptions to the warrant requirement
that apply categorically and thus do not require an
assessment of whether the policy justifications
underlying the exception, which may include
exigency-based considerations, are implicated in a
particular case.”).
That is so because the Supreme Court has made
a judgment that, in these circumstances, it is pretty
much always reasonable to conduct a search, even
without a warrant. Similarly, adopting a bright-line
rule in the consensual-encounter context would mean

46a
only that the Supreme Court has decided that it is
presumptively unreasonable to assume consensual a
police encounter where the officer seeks to
investigate the citizen with whom he wants to speak
if the person has not first been advised of his right to
decline.
I am also attuned to the Court’s concern—
understandably shared by police officers working in
challenging, dangerous jobs—that imposing a brightline rule in the Fourth Amendment context could
impose a cost, since people might not consent to a
police interaction if advised that they not need do so.
And to be sure, in Schneckloth, the Court reasoned
that consent searches, much like consensual
questioning, can “yield necessary evidence for the
solution and prosecution of crime . . . .” Schneckloth,
412 U.S. at 243.
But a warning advising a person of her rights is
not mutually exclusive with law-enforcement
cooperation. It simply ensures that cooperation with
law enforcement is truly consensual. Though “it is no
part of the policy underlying the Fourth . . .
Amendment[] to discourage citizens from aiding to
the utmost of their ability in the apprehension of
criminals,” id. (cleaned up), informing a person
possibly subject “to a governmental intrusion . . . that
she has a right to say no,” Carbado, (E)racing, supra,
at 1027, does not conflict with that policy concern.
Indeed, this was the same criticism levied when
the Court issued Miranda. Miranda, 384 U.S. at 516–
17 (Harlan, J., dissenting). But those concerns turned
out to be unwarranted, as there is “wide agreement
that Miranda has had a negligible impact on the

47a
confession rate.” Kamisar, supra, at 177.11 One study
concluded that immediately after Miranda issued, it
may have caused a 4.1 percent drop in the confession
rate, which translated to just a 0.78 percent drop in
the conviction rate. Thomas & Leo, supra, at 240.
But those who have researched this issue have
concluded that even those negligible losses have
likely been reversed because police have learned how
to adhere to Miranda and still obtain confessions. Id.
Surveys of criminal-justice practitioners have
confirmed that “Miranda was not a significant factor
that impedes [a prosecutor’s] ability to prosecute
criminals successfully.” Id. at 254.
And Kessler’s research suggests the same would
be true if a bright-line rule were applied in the
Fourth Amendment context. Even when people were
advised of their right to leave a police encounter, in
the survey Kessler conducted, most still reported that
they would not be likely to do so. See Kessler, supra,
at 78-79 (noting 40% of people reported a 1 or a 2 (out
of 5), and two-thirds reported a 3 or lower on the
comfort scale).
Law enforcement equally benefits from brightline rules because agencies “strongly prefer that their
officers work within a framework of articulable
11

One commentator has argued that Miranda had an
appreciable effect on the ability of law enforcement to obtain
confessions, but his findings “have not been generally accepted
in either the legal or the social science community.” George C.
Thomas III & Richard A. Leo, The Effects of Miranda v.
Arizona: “Embedded” in Our National Culture?, 29 Crime &
Just. 203, 244 (2002) (collecting sources criticizing that
commentator’s methodology and conclusions).

48a
standards. . . .” Corey Fleming Hirokawa, Comment,

Making the ‘Law of the Land’ the Law on the Street:
How Police Academics Teach Evolving Fourth
Amendment Law, 49 Emory L.J. 295, 296–97 (2000).
Even when courts set vague balancing tests, “police
departments are likely to respond by setting clear,
specific rules for their officers that keep them well
within the zone of constitutional action . . . .” Id.
In fact, some officers already issue prequestioning warnings to citizens they encounter on
the street. See, e.g., Pastor v. State, 498 So. 2d 962,
963 (Fla. Dist. Ct. App. 1986), quashed on other
grounds, 521 So. 2d 1079 (Fla. 1988); cf. United
States v. Czichray, 378 F.3d 822, 825 (8th Cir. 2004);
Carbado, (E)racing, supra, at 1029 (noting that
“federal agents were already in the practice of giving
. . . warnings” before conducting consent searches)
(internal quotation marks omitted). Besides
demonstrating the efficacy of the practice, this fact
also suggests that requiring officers to advise citizens
they are free to decline an interaction will not
materially affect law enforcement’s abilities to obtain
cooperation from citizens.
Of course, a bright-line rule is not a panacea.
Citizens may still feel uncomfortable leaving
interactions with the police, as Kessler’s study
demonstrates. But a bright-line rule would eliminate
the ambiguity that plagues the current hybrid test. It
would also provide a clear framework for citizens,
officers, and courts to determine when a seizure has
occurred. While not a perfect solution, a bright-line
rule would take a big step towards reflecting the
realities of police-civilian interactions and making
them safer for both officers and citizens. And this

49a
race-neutral rule would help remedy the racial
disparities I have described, assisting in making
Fourth Amendment rights in consensual encounters
more of a reality for all citizens.
V.
Our panel decision follows the law, but the law
we applied is ripe for change. The “free to
leave”/affirmative-acts-of-coercion test ensures that
police-citizen encounters are rife with dangerous
ambiguity. It also, on occasion, “reduces the Fourth
Amendment to a form of words,” Silverthorne
Lumber Co. v. United States, 251 U.S. 385, 392
(1920), by allowing unreasonable seizures to occur,
even if the reasonable citizen or officer does not view
the encounter as consensual.
To fix the problems inherent in the current
seizure analysis, we should adopt a bright-line rule.
True, the Supreme Court has previously rejected the
bright-line rule approach in the Fourth Amendment
context. But in the intervening time, it has become
clear that the “free to leave”/affirmative-acts-ofcoercion test is dangerous and unworkable. And
research studies, real-life experiences, and commonsense principles demonstrate that a bright-line rule
could greatly improve the situation with little to no
downside. I therefore respectfully urge the Court to
reconsider its earlier position and to adopt a brightline rule.

50a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
____________
No. 19-10083
____________

[PUBLISH]

D.C. Docket No. 8:18-cr-00100-VMC-AAS-1
UNITED STATES OF AMERICA,
Plaintiff–Appellee,
versus
ANTHONY W. KNIGHTS,
Defendant–Appellant.
___________________
Appeal from the United States District Court
for the Middle District of Florida
__________________
(August 3, 2020)
Before
WILLIAM
PRYOR,
Chief
Judge,
*
ROSENBAUM, Circuit Judge, and MOORE, District
Judge.
WILLIAM PRYOR, Chief Judge:

*

Honorable K. Michael Moore, Chief United States District
Judge for the Southern District of Florida, sitting by
designation.

51a
This appeal requires us to decide whether officers
violated Anthony Knights’s right to be free from
unreasonable
seizures,
under
the
Fourth
Amendment, by conducting an investigatory stop
without reasonable suspicion. Two officers saw
Knights and Hozell Keaton around 1:00 a.m. in a car
that was parked in the front yard of a home.
Suspecting that the men might be trying to steal the
car, the officers parked near it and approached
Knights, who was in the driver’s seat. When Knights
opened the door, an officer immediately smelled
marijuana. The ensuing search of Knights and the
car revealed ammunition and firearms. Because
Knights had felony convictions, a grand jury charged
him with possession of a firearm and ammunition by
a felon, 18 U.S.C. §§ 922(g)(1), 924(a)(2). Knights
moved to suppress the evidence the officers found and
the statements he made as fruit of an unlawful
seizure. The district court denied the motion,
convicted Knights, and sentenced him to 33 months
of imprisonment. We affirm because Knights’s
interaction with the officers was a consensual
encounter that did not implicate the Fourth
Amendment.
I. BACKGROUND
Late at night, Anthony Knights, Hozell Keaton,
and Knights’s nephew were smoking marijuana and
listening to music while sitting in or standing near
an Oldsmobile sedan in Tampa, Florida. The car was
parked in a grassy area between the street and the
white fence of a home that belonged to one of
Keaton’s relatives. The driver’s side of the car was
near the street and the passenger’s side was near the
fence.

52a
On a routine patrol around 1:00 a.m., Officers
Andrew Seligman and Brian Samuel of the Tampa
Police Department saw two of the car’s doors open
with Knights and Keaton leaning into the car. The
officers believed that Knights and Keaton might be
stealing something from the car. They knew the area
to be “high crime” and to have gang activity from
their experience responding to multiple shootings
and narcotics crimes. So they drove past the
Oldsmobile for a better look. Knights and Keaton
then “gave the officers a blank stare,” and according
to Officer Seligman, “kind of seemed nervous.” The
officers then heard someone unsuccessfully try to
start the car. Thinking that Knights and Keaton
“might be actually trying to steal the vehicle,” the
officers decided to investigate further.
Officer Seligman decided to turn around and park
the patrol car near the Oldsmobile, which was parked
on a grassy area next to the street in the direction of
traffic for that side of the road. Officer Seligman
parked on the street next to the Oldsmobile in the
wrong direction for traffic so that the trunk of the
patrol car was nearly aligned with the trunk of the
Oldsmobile. As Officer Seligman was parking, he
trained his flashlight on Knights. According to
Knights and Officer Seligman, the patrol car was
parked in a way that would have allowed Knights to
drive away. Officer Samuel left the patrol car and
attempted to talk to Keaton, who was walking toward
the house, but Keaton entered the house without
responding.
The officers then approached Knights, who sat in
the driver’s seat and closed the car door. Officer
Seligman approached the car with his flashlight and

53a
knocked on the driver’s window. When Knights
opened the door, Officer Seligman “was overwhelmed
with an odor of burnt marijuana.” Officer Seligman
asked Knights if he owned the car, and Knights said
that he and his wife owned it and gave Officer
Seligman his driver’s license and possibly the
registration for the car. The officers later confirmed
that his wife owned the car. When Officer Seligman
asked Knights if he had marijuana, Knights said, “I’ll
be honest with you. It’s all gone.”
Officer Seligman then began to search for
narcotics. He searched Knights’s person and found a
pill bottle containing several different kinds of pills.
Officer Seligman arrested Knights and searched his
car, starting with a backpack that Knights said
contained a prescription for the pills. He found
medical documents, a firearm cartridge, and a ski
mask. He also found a scale, smoked marijuana,
marijuana residue, a handgun, a rifle, and another
firearm cartridge. Knights agreed to an interview
after the officers warned him of his rights, see
Miranda v. Arizona, 384 U.S. 436, 444 (1966), and he
then admitted that he owned the handgun. Knights
and the officers described the entire encounter as
calm and amicable.
A grand jury indicted Knights on one count of
possessing a firearm and ammunition as a felon, 18
U.S.C. §§ 922(g)(1), 924(a)(2). Before trial, Knights
moved to suppress his admissions and the evidence
the officers found during the search. He argued that
they were fruit of an illegal seizure that occurred
when—without reasonable suspicion—the officers
parked behind his car or, at the latest, when they
walked up to his car. The government responded that

54a
the incident “began as a police-citizen encounter” and
did not turn into a “seizure” until the officers started
searching for narcotics based on probable cause that
Knights possessed marijuana, and alternatively, the
officers had reasonable suspicion to conduct an
investigatory stop.
The district court referred the motion to a
magistrate judge who held a hearing and
recommended granting the suppression motion. The
magistrate judge recommended ruling that the
officers conducted an investigatory stop because “the
officers’ show of authority, especially Officer
Seligman, their locations as they approached the car,
and the patrol car impeding Mr. Knights’s ability to
drive away, [established that] no reasonable person
in Mr. Knights’s position would feel free to leave or
disregard the two officers.” And because the
magistrate judge determined that the officers lacked
reasonable suspicion and the physical evidence and
statements were fruit of the unlawful seizure, she
recommended granting the motion.
The district court, after considering briefing and
oral argument, accepted the magistrate judge’s
recitation of the facts but disagreed with her
recommendation and denied the suppression motion.
It explained that the constitutionality of the officers’
conduct turned on when they seized Knights because
the odor of marijuana provided a lawful basis for
seizing him. It ruled that the officers did not seize
him when they parked their patrol car and walked up
to Knights because “it was a police-citizen encounter
involving no detention and no coercion.” The district
court found that Knights could have either driven
away “with skilled driving” or walked away. It also

55a
relied on the absence of the police questioning
Knights, displaying their weapons, touching him,
asking for his identification, or having a verbal
exchange with him.
Knights proceeded to a bench trial at which he
and the government stipulated to the relevant facts.
The district court adjudicated him guilty and
sentenced him to a below-guideline sentence of 33
months of imprisonment.
II. STANDARDS OF REVIEW
“A district court’s ruling on a motion to suppress
presents a mixed question of law and fact.” United
States v. Perez, 443 F.3d 772, 774 (11th Cir. 2006)
(internal quotation marks omitted). We review its
legal conclusions de novo, and we accept its factual
findings unless they are clearly erroneous. Id. We
construe the facts in the light most favorable to the
government because it prevailed in the district court.
Id.
III. DISCUSSION
The Fourth Amendment protects “[t]he right of
the people . . . against unreasonable searches and
seizures.” U.S. Const. amend. IV. A “seizure” does not
occur every time a police officer interacts with a
citizen. Officers are free to “approach[] individuals on
the street or in other public places and put[]
questions to them if they are willing to listen.”
United States v. Drayton, 536 U.S. 194, 200 (2002).
In these consensual encounters, the officers need no
suspicion because the Fourth Amendment is not
implicated. Florida v. Bostick, 501 U.S. 429, 434
(1991); Perez, 443 F.3d at 777–78. But officers need

56a
reasonable suspicion if an encounter becomes an
investigatory stop. See Bostick, 501 U.S. at 434;
United States v. Jordan, 635 F.3d 1181, 1186 (11th
Cir. 2011). An investigatory stop occurs “[o]nly when
the officer, by means of physical force or show of
authority, has in some way restrained the liberty of a
citizen.” Jordan, 635 F.3d at 1185 (quoting Terry v.
Ohio, 392 U.S. 1, 19 n.16 (1968)).
The test for whether the officer restrained a
citizen’s liberty is whether “a reasonable person
would feel free to terminate the encounter.” Drayton,
536 U.S. at 201; see also Immigr. & Naturalization
Serv. v. Delgado, 466 U.S. 210, 215 (1984). We must
imagine how an objective, reasonable, and innocent
person would feel, not how the particular suspect felt.
Drayton, 536 U.S. at 202; Michigan v. Chesternut,
486 U.S. 567, 574 (1988). All the circumstances are
relevant, Bostick, 501 U.S. at 439, including “whether
a citizen’s path is blocked or impeded”; whether the
officers retained the individual’s identification; “the
suspect’s age, education and intelligence; the length
of the . . . detention and questioning; the number of
police officers present”; whether the officers displayed
their weapons; “any physical touching of the
suspect[;] and the language and tone of voice of the
police.” Perez, 443 F.3d at 778 (internal quotation
marks omitted); see also United States v.
Mendenhall, 446 U.S. 544, 554 (1980) (opinion of
Stewart, J.).
Knights argues that the district court should
have suppressed his admissions and evidence
because the officers stopped him without reasonable
suspicion when they parked the patrol car close to his
car and then approached him. He does not challenge

57a
any seizure that occurred after that point. The
government responds that the encounter between
Knights and the officers was initially consensual and
alternatively that the officers had reasonable
suspicion. Because we conclude that the encounter
was initially consensual, we need not decide whether
the officers had reasonable suspicion.
In this encounter, a reasonable person would
have felt free to leave. In fact, Knights’s companion
Keaton did leave. As Keaton had done, Knights was
physically capable of walking away. He also could
have driven away, and the officers did not display
their weapons, touch Knights, or even speak to him—
let alone issue any commands or ask him for his
identification and retain it. And before the officers
approached Knights, they did not activate the
lightbar or siren on the patrol car, and as we have
mentioned, they allowed Keaton to leave the car,
ignore their invitation to talk, and enter the home
where the car was parked.
In similar circumstances, we have concluded that
an officer did not restrain a suspect. In Miller v.
Harget, an officer parked behind a suspect’s parked
car—blocking him from driving away—and then
“turned on his ‘window lights’” and approached the
suspect’s car on foot. 458 F.3d 1251, 1257–58 (11th
Cir. 2006). We reasoned that when the officer quickly
approached the suspect’s car, he “did not do anything
that would appear coercive to a reasonable person.
For example, he did not draw his gun, give any
directions to [the suspect], or activate his roof lights.”
Id. at 1257. Because the officer did not make a “show
of authority that communicated to the individual that
his liberty was restrained,” it was not an

58a
investigatory stop. Id. at 1258 (alterations adopted)
(internal quotation marks omitted). For the same
reason, a reasonable person in Knights’s position
would have felt free to leave; the officers did not
make a show of authority communicating that
Knights was not free to leave.
Knights disagrees and relies on our precedent
United States v. Beck, in which we concluded that
the officers stopped the defendant because of the
proximity between his car and the officers’ car. 602
F.2d 726, 727, 729 (5th Cir. 1979). Two officers pulled
their patrol car alongside Beck and his passenger’s
parked and idling car and “engaged [them] in
conversation” about what they were doing there. Id.
at 727. We explained that “[b]y pulling so close to the
[car], the officers effectively restrained the movement
of Beck and his passenger” and it was clear “that
they were not free to ignore the officers and proceed
on their way.” Id. at 729 (alterations adopted)
(internal quotation marks omitted). Knights argues
that the same is true here because the way in which
the officers parked blocked him from driving away,
and the officers also impeded his ability to walk
away.
We are unpersuaded that Beck controls here. The
officers approached Knights in a meaningfully
different manner. Instead of parking alongside his
car and engaging him in conversation, they parked
near his car—with enough space for him to drive
away—and approached his car to try to speak to him,
without conveying that Knights was required to
comply. Indeed, as we have noted, just a moment
earlier, Knights’s companion obviously felt free to

59a
leave the car, ignore the officer’s invitation to speak
with him, and enter the house.
Knights’s other arguments are also unpersuasive.
He argues that a reasonable person would not have
felt free to walk away because doing so would have
required abandoning his car in a high-crime area.
But we disagree because two officers would have been
near the car, and Knights could have easily returned
to the car as soon as they left. He also repeatedly
mentions that Officer Seligman used a flashlight
when he approached the Oldsmobile. But we fail to
see how a flashlight communicated a show of
authority in these circumstances. A flashlight would
also be used by “an officer approach[ing] a stranded
motorist to offer assistance,” Miller, 458 F.3d at 1258,
or by an ordinary person outside in the middle of the
night. Knights also argues that the presence of two
officers weighs in favor of the encounter being a
seizure, and that “young African-American men feel
that they cannot walk away from police without
risking arrest or bodily harm.” Although the presence
of multiple officers and the age and race of a suspect
may be relevant factors, see Mendenhall, 446 U.S. at
558; Perez, 443 F.3d at 778, the totality of the
circumstances establish that this encounter was not
coercive.
IV. CONCLUSION
We AFFIRM Knights’s conviction.

60a
APPENDIX C
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
UNITED STATES OF AMERICA
v.
ANTHONY W. KNIGHTS

Case No.
8:18-cr-100-T33AAS
/

ORDER
This matter is before the Court on consideration
of United States Magistrate Judge Amanda Arnold
Sansone’s Amended Report and Recommendation
(Doc. # 54), filed on July 16, 2018, recommending
that Defendant Anthony W. Knights’s Motion to
Suppress (Doc. # 28) be granted. Judge Sansone
entered the Amended Report and Recommendation
after holding an evidentiary hearing. (Doc. # 42). The
Government filed a timely objection to the Report and
Recommendation (Doc. # 61) on July 30, 2018.
Defendant responded to the Objection (Doc. # 62) on
August 13, 2018, and the Government replied on
August 21, 2018. (Doc. # 65).
This Court held an oral argument to address the
objection on August 24, 2018. (Doc. # 66). For the
reasons stated in open court on August 24, 2018, and
as articulated below, the Court sustains the
Government’s objection to the Report and
Recommendation. The Court denies the Motion to
Suppress.

61a
I. Legal Standard
After conducting a careful and complete review of
the findings and recommendations, a District Judge
may accept, reject or modify the Magistrate Judge’s
Report and Recommendation. 28 U.S.C. § 636(b)(1);
Williams v. Wainwright, 681 F.2d 732, 732 (11th Cir.
1982). In the absence of specific objections, there is no
requirement that a district judge review factual
findings de novo, Garvey v. Vaughn, 993 F.2d 776,
779 n.9 (11th Cir. 1993), and the court may accept,
reject or modify, in whole or in part, the findings and
recommendations. 28 U.S.C. § 636(b)(1)(C). The
District Judge reviews legal conclusions de novo,
even in the absence of an objection. See CooperHouston v. S. Ry. Co., 37 F.3d 603, 604 (11th Cir.
1994); Castro Bobadilla v. Reno, 826 F. Supp. 1428,
1431-32 (S.D. Fla. 1993), aff’d, 28 F.3d 116 (11th Cir.
1994).
II. The Report and Recommendation
The Magistrate Judge entered detailed Factual
Findings on pages 2 through 6 of the Amended
Report and Recommendation. (Doc. # 54). This Court
does not find any reason to quarrel with the accuracy
of those factual findings. The Report and
Recommendation correctly explains that law
enforcement officers Seligman and Samuel were
patrolling a high crime neighborhood at 1:00 AM on
January 26, 2018, in a marked police cruiser. At that
time, the officers observed Defendant and another
man, Hozell Keaton, leaning into an Oldsmobile that
was parked in front of a residence. Defendant and
Keaton gave the officers a blank stare when the
officers drove by. Someone tried to start the

62a
Oldsmobile, but it did not start. The officers then
turned the cruiser around and parked near the
Oldsmobile to ensure that no criminal activity was
underway. The officers testified that the police
cruiser’s trunk was parallel with the Oldsmobile’s
trunk, and that the police cruiser was parked on the
public street, while the Oldsmobile was parked in the
yard of a residence. At that time, Keaton left the
Oldsmobile and walked directly into the residence.1
Officer Samuel tried to get Keaton’s attention, but
Keaton made it into the house and did not respond to
the Officer’s attempts to initiate a police-citizen
encounter.
Officer
Seligman
then
approached
the
Oldsmobile, holding a standard police flashlight, and
he testified that he smelled the distinct odor of
marijuana. At that point, only Defendant was in the
Oldsmobile. Officer Seligman asked Defendant if he
possessed marijuana, and Defendant responded: “I’ll
be honest with you. It’s all gone.” Officer Seligman
accordingly began a narcotics investigation. Officer
Seligman asked Defendant to step out of the
Oldsmobile. Officer Seligman searched Defendant
and found a pill bottle containing multiple different
prescription drugs. Defendant stated that he had
prescriptions for the medications and that the
prescriptions were in a backpack in the Oldsmobile.
Officer Seligman located the backpack and found a
firearm cartridge, a ski mask, and other items.

1

As developed at the oral argument held on August 24,
2018, Defendant’s nephew had also been in the Oldsmobile but
he made it into the residence before any interaction with law
enforcement took place.

63a
Officer Seligman then searched the Oldsmobile. He
located multiple firearms, ammunition, and other
contraband. Defendant admitted that he owned the
firearms and ammunition. Defendant was charged
with being a felon in possession of a firearm and
ammunition on March 1, 2018. (Doc. # 1).
As noted, Defendant filed a Motion to Suppress.
(Doc. # 28). He argues that all items of evidence
(including his own statements) derived from the
January 26, 2018, search are fruits of the poisonous
tree and therefore should be suppressed under the
Fourth Amendment to the United States
Constitution. The Government responded to the
Motion to Suppress. (Doc. # 34). On June 19, 2018,
Judge Sansone held an evidentiary hearing on the
Motion to Suppress. (Doc. # 56). Judge Sansone
entered her Amended Report and Recommendation
on July 16, 2018, recommending that the Motion to
Suppress be granted. (Doc. # 54). She based her
recommendation on the finding that Defendant was
seized without reasonable suspicion when the police
parked the cruiser near the Oldsmobile. The
Government objected to this finding on July 30, 2018.
(Doc. # 61). As explained at the August 24, 2018, oral
argument, the Court sustains the Government’s
objection.
III. Analysis
Here, Defendant was obviously subject to both
search and seizure. The question is: Did law
enforcement violate his Fourth Amendment Rights?
The analysis here turns on when Defendant was
“seized.”

64a
The Magistrate Judge found that “Officers
Seligman and Samuel seized Mr. Knights when they
parked the patrol car very close to the Oldsmobile,
impeded Mr. Knight’s ability to drive away, then
approached Mr. Knights in the Oldsmobile flashing a
flashlight.” (Doc. # 54 at 14). And, according to the
Report and Recommendation, at the time of that
seizure, the officers had no reasonable suspicion of
criminal activity.
The Court respectfully disagrees with this
finding. The Fourth Amendment protects individuals
from unreasonable search and seizure. But, not every
police-citizen encounter results in a seizure under the
Fourth Amendment. Instead, three categories of
police-citizen encounters exist: (1) police-citizen
exchanges that involve no coercion or detention; (2)
brief seizures or investigatory stops (Terry stops);
and (3) full scale arrests. United States v. Perez, 443
F.3d 772, 777 (11th Cir. 2006).
When the police officers initially approached
Defendant in his car, it was a police-citizen encounter
involving no detention and no coercion. The police
approached for the lawful purpose of determining
whether criminal activity was afoot. Defendant was
not detained by the mere presence of the police or the
parking of a police car in his proximity. The Eleventh
Circuit explains:
Law enforcement officers do not violate the
Fourth
Amendment’s
prohibition
of
unreasonable seizures merely by approaching
individuals on the street or in other public
places and putting questions to them if they
are willing to listen. Even when law

65a
enforcement officers have no basis for
suspecting a particular individual, they may
pose questions, ask for identification, and
request consent to search luggage – provided
that they do not induce cooperation by
coercive means. If a reasonable person would
feel free to terminate the encounter, then he
or she has not been seized.

United States v. Drayton, 536 U.S. 194, 200 (2002).
The mere fact that a police officer approaches
someone and identifies himself does not result in a
seizure. United States v. Baker, 290 F.3d 1276, 1278
(11th Cir. 2002). And, like the facts presented here, a
police officer does not seize an individual merely by
approaching an individual in a parked car. Miller v.
Harget, 458 F.3d 1251, 1257 (11th Cir. 2006).
Officer Seligman testified that Defendant was
seized when the narcotics investigation began, but
not before. Officer Seligman testified that “it is not
illegal to have the odor of marijuana” - “The odor of
marijuana is not illegal, so he is not arrested at that
point.” (Doc. # 56 at 38). But, the odor of marijuana
did provide probable cause for the search of
Defendant’s person and car. See United States v.
Garza, 539 F.2d 381, 382 (5th Cir. 1976) (“The odor of
marijuana emanating from the vehicle gave the
officer probable cause to conduct the search.”); United
States v. Ward, No. 17-10626, 2018 WL 416772, at *7
(11th Cir. Jan. 16, 2018) (“It is also well established
that if a police officer detects the odor of marijuana,
this gives rise to probable cause.”); United States v.
Lueck, 678 F.2d 895, 903 (11th Cir. 1982) (“At the
point marijuana was smelled by [an officer], probable

66a
cause to believe a crime had been committed . . .
arose.”).
With probable cause firmly established, the police
searched Defendant. That search revealed a pill
bottle with multiple kinds of pills. The Defendant
stated that the prescriptions were in a backpack in
the car. The police searched the backpack and found
a firearm magazine. Then, they found multiple
firearms and ammunition in the car.
This seizure is described differently in the
Amended Report and Recommendation. The
Magistrate Judge found that Defendant was seized
much earlier – when the police parked the police car
near the Oldsmobile. As noted, this Court disagrees
with that finding.
The Report and Recommendation draws
extensively upon United States v. Beck, 602 F.2d 726
(5th Cir. 1979). There, two police officers patrolled a
high crime neighborhood in a marked police car when
they saw a parked Chevrolet with the engine running
and two men inside. The police wanted to have an
encounter with the two men in the Chevrolet, so they
parked next to the Chevrolet. However, the police car
was so close to the Chevrolet that the officer could
not open his door to exit the police car. As a result,
the police car pulled forward. There, the former Fifth
Circuit said: “By pulling so close to the Chevrolet, the
officers effectively restrained the movement of Beck
and his passenger; from the record it is readily
apparent that they were not free to ignore the officers
and proceed on their way.” Id. at 729.
The present case is not comparable to Beck
because the police car was not similarly close to the

67a
Oldsmobile. Instead, the case is more factually
similar to United States v. Miller, where a police
officer, after observing Miller’s car changing lanes
and pulling into a hotel parking lot without using a
signal, pulled into the parking lot and parked directly
behind Miller’s car, thereby blocking Miller in. The
officer activated his lights and beeped the siren to
announce the police presence. The officer got out of
the car and approached the driver’s side of Miller’s
car. When Miller lowered the window, the police
officer smelled alcohol and observed that Miller had
bloodshot and glassy eyes.
The district court found that Miller was not
detained until that very point (not when the police
parked Miller in). The police officer asked Miller
various questions and Miller admitted he had been
drinking. Then, after Miller refused to take a
breathalyzer, he was arrested for DUI. Following an
acquittal, Miller filed a complaint in federal court
alleging arrest without probable cause. The district
court found that Miller was seized for Fourth
Amendment purposes only after the police officer
approached the car, smelled alcohol on Miller and
observed his appearance, and prior to that (that is,
when he was just parked in by a police officer), he
was not detained.2

2

The Court disagrees with the statement in the Amended
Report and Recommendation that to the extent Miller applied
and conflicted with Beck, Beck controls. (Doc. # 54 at 15). Beck
did not establish a per se rule that parking a police car near a
citizen’s car causes a seizure. There is no bright-line rule
applicable to investigatory pursuits, and the appropriate test is
whether a reasonable person, viewing the particular police
conduct as a whole and within the setting of all the surrounding

68a
In the present case, it was not established that
the Oldsmobile was even parked in. Rather, with
skilled driving, Defendant could have driven away (if
his car could start) and, it is clear that he could have
walked away, because that is exactly what his
companions did when they noticed police presence.
In addition to comparing factually similar cases,
the Court also examines the following factors to
determine whether (or when) a seizure has occurred:
(1) whether a citizen’s path is blocked or impeded; (2)
whether identification is retained; (3) the suspect’s
age, education and intelligence; (4) the length of the
suspect’s detention and questioning; (5) the number
of police officers present; (6) the display of weapons;
(7) any physical touching of the suspect; and (8) the
language and tone of the voice of the police. See De
La Rosa, 922 F.2d at 678.
All of these factors point toward a seizure. But
none of the factors implicate a seizure when the
single police cruiser parked near the Oldsmobile.
Defendant’s car would not start – that is what

circumstances, would have concluded that the police had
restrained his liberty so that he was not free to leave. Michigan
v. Chesternut, 486 U.S. 567, 573 (1988). Per se rules are
generally inappropriate in the Fourth Amendment context, and
the proper inquiry necessitates consideration of all circumstance
surrounding the encounter. United States v. Drayton, 536 U.S.
194, 201 (2002). Whether a citizen’s path is blocked or impeded
by law enforcement is not dispositive, but is one of the factors to
consider in conducting a Fourth Amendment analysis. See
United States v. De La Rosa, 922 F.2d 675, 678 (11th Cir. 1991).
Miller and Beck present different factual circumstances, and do
not conflict with each other since each case is determined by the
totality of the circumstances.

69a
prevented him from driving away, not the parked
police car. And, there was at least one other man, if
not two, who simply walked away and went into the
home. There was nothing stopping Defendant from
doing the same. At the time the police car parked,
there was no questioning, no display of weapons, no
physical touching of Defendant, no asking for ID, and
no verbal exchange with Defendant. The seizure
factors were implicated only after the police smelled
marijuana and lawfully began their narcotics
investigation. The Court accordingly finds that
Defendant’s Fourth Amendment rights were not
violated and his Motion to Suppress is accordingly
denied.
Accordingly, it is
ORDERED, ADJUDGED, and DECREED:
(1) The Court declines to adopt United States
Magistrate Judge Amanda Arnold Sansone’s
Amended Report and Recommendation (Doc. #
54) to the extent it finds that the Defendant was
subject to an unlawful seizure.
(2) The Government’s Objection to the Report and
Recommendation (Doc. # 61) is SUSTAINED.
(3) Defendant’s Motion to Suppress (Doc. # 28) is
DENIED.
DONE and ORDERED in Chambers, in Tampa,
Florida, this 6th day of September, 2018.

Virginia M. Hernandez Covington
VIRGINIA M. HERNANDEZ COVINGTON
UNITED STATES DISTRICT JUDGE

70a
APPENDIX D
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
UNITED STATES OF AMERICA
v.
ANTHONY W. KNIGHTS

Case No.
8:18-cr-100-T33AAS
/

AMENDED REPORT AND RECOMMENDATION
(amended as to exhibit citations only)1
Anthony Knights moves to suppress all evidence
and statements law enforcement obtained during a
search. (Doc. 28). The government objects. (Doc. 34).
The undersigned concludes, based on the totality of
the circumstances, law enforcement seized Mr.
Knights without reasonable suspicion. Further, the
undersigned concludes the evidence and statements
the officers obtained are fruit of the unlawful search.
Therefore, the undersigned recommends Mr.
Knights’s motion to suppress should be GRANTED.

1

This Amended Report and Recommendation is
substantively identical to the previous Report and
Recommendation (Doc. 51). This Amended Report and
Recommendation, however, amends and replaces the prior
Report and Recommendation to reflect more accurate citations
to the parties’ exhibits. (Docs. 52, 53). Consequently, the parties
have fourteen days from the date of this Amended Report and
Recommendation to object under 28 U.S.C. Section 636(b)(1).

71a
I. FACTUAL FINDINGS2
Around 1:00 a.m. on January 26, 2018, Officers
Seligman and Samuel3 patrolled a high-crime
residential area in Tampa, Florida, in a marked
police vehicle. Officer Seligman drove and Officer
Samuel sat in the passenger seat. Both officers wore
their uniforms and carried their service-issued
handgun. The officers knew the residential area
recently experienced high crime and gang activity
because they previously responded to multiple
shootings and narcotics crimes in the area.
While they patrolled, the officers drove past a
dark blue Oldsmobile parked next to the street in a
residence’s front yard. The Oldsmobile was parallelparked between a wooden white fence located in front
of the residence and the street. The driver’s side of
the Oldsmobile was closer to the street and the
passenger’s side closer to the fence. Enough space
existed for someone to open the driver-side door
without going onto the street and enough space
existed to open the passenger-side door without
hitting the fence. (Doc. 52, Gov’t Ex. 1–7). Behind the
Oldsmobile was the residence’s stand-alone mailbox
and a city-issued garbage receptacle, and in front of
the Oldsmobile was a neighbor’s stand-alone mailbox.
(Doc. 52-1, Gov’t Ex. 1). Towering over the neighbor’s
mailbox and directly in front of the Oldsmobile was a
large, overgrown shrub, part of which nearly touched
2

These facts, construed in a light more favorable to the
government, were elicited at an evidentiary hearing held before
the undersigned.
3

Officers Seligman and Samuel work for Tampa Police
Department.

72a
the front of the parked Oldsmobile. (Doc. 52-1, Gov’t
Ex. 1; Doc. 52-5, Gov’t Ex. 5; Doc. 53-4, Def.’s Ex. 10).
Officers Seligman and Samuel saw one man, later
identified as Mr. Knights, leaning into the open
driver-side door and another man, later identified as
Hozell Keaton, leaning into the open passenger-side
door. Believing Messrs. Knights and Keaton might be
burglarizing the car, the officers drove past the
Oldsmobile to get a better look. When the officers
passed, Messrs. Knights and Keaton gave the officers
a “blank stare.” After they passed the Oldsmobile, the
officers heard someone try to start the car, but the
engine would not start. The officers then turned the
patrol car around to investigate further.
Officer Seligman parked the patrol car on the
side of the street immediately next to the Oldsmobile
and facing the direction of (and blocking) oncoming
traffic, though there is no evidence that any traffic
approached during the encounter. The patrol car was
parked facing the opposite direction that the
Oldsmobile faced and the two cars were trunk-totrunk; the trunk of the patrol car was parallel with
the Oldsmobile’s trunk. Mr. Knights was by the
driver’s side next to the patrol car. Officer Seligman
flashed his flashlight on Mr. Knights while he parked
the patrol car.
Before Officer Seligman parked the patrol car,
Mr. Keaton walked away from the Oldsmobile,
through the gate in the wooden fence, and toward the
house. Officer Samuel got out of the patrol car,
walked toward Mr. Keaton, and tried to get his
attention to speak with him. But Mr. Keaton was
already close to the residence’s front door by the time

73a
Officer Samuel got out of the patrol car. So, Officer
Samuel was unable to get Mr. Keaton to speak with
him before Mr. Keaton walked into the house. Officer
Samuel then walked back toward the Oldsmobile.
While Officer Samuel tried to speak with Mr.
Keaton, Mr. Knights sat in the driver’s seat of the
Oldsmobile and closed the door. Officer Seligman got
out of the patrol car and approached Mr. Knights in
the Oldsmobile. At this point, two uniformed officers
wearing service-issued handguns stood in close
proximity to, and approached, Mr. Knights in the
Oldsmobile. Officer Seligman knocked on Mr.
Knights’s window. Mr. Knights opened his door and,
immediately, Officer Seligman smelled a distinct
burnt marijuana odor coming from the car.
After he smelled the marijuana, Officer Seligman
asked Mr. Knights if he owned the Oldsmobile. Mr.
Knights said the car belonged to him and his wife.
During this exchange, Mr. Knights gave Officer
Seligman his driver’s license. Mr. Knights testified he
also gave his vehicle registration to Officer Seligman,
but the officers could not confirm that in their
testimony. Officer Seligman also asked Mr. Knights if
he had any marijuana. Mr. Knights replied, “I’ll be
honest with you. It’s all gone.” At this point, Officer
Seligman began a narcotics investigation.
Officer Seligman had Mr. Knights step out of the
Oldsmobile, moved him toward the back of the car,
and had him place his hands on top of the car. Officer
Seligman searched Mr. Knights and found a pill
bottle inside one of his pockets. During this time,

74a
Corporal McKendree4 arrived on scene. Officer
Seligman handed the pill bottle to Corporal
McKendree, who found three different types of pills
inside the bottle. Officer Seligman then arrested Mr.
Knights and placed him in the back seat of his patrol
car. Mr. Knights told Officer Seligman he had a
prescription for the pills, which was located in a
backpack in the backseat of the Oldsmobile.
After placing Mr. Knights in the patrol car,
Officer Seligman began to search the Oldsmobile
while Officer Samuel stood next to the Oldsmobile.
Officer Seligman first searched the backseat of the
Oldsmobile for the backpack. Officer Seligman
located the backpack and, inside, found medical
documents, a firearm cartridge, and a ski mask.
Officer Seligman also saw a scale in the backseat.
While Officer Seligman searched the Oldsmobile,
Officer Samuel ran a search of Mr. Knights’s driver’s
license to determine if Mr. Knights and his wife
owned the Oldsmobile. The officers eventually
learned the Oldsmobile belonged to Mr. Knights’s
wife.
Officer Seligman then searched the front of the
Oldsmobile, where he found a handgun between the
driver’s seat and center console. Officer Seligman saw
smoked marijuana in the ashtray and marijuana
residue in different parts of the car, including the
floorboard.
After Officer Seligman performed his search,
Officer Samuel searched the trunk of the Oldsmobile
4

Corporal McKendree also works for Tampa Police
Department.

75a
to determine if other items were in the car. Officer
Samuel found a rifle and a firearm cartridge in the
trunk. Officer Seligman read Miranda warnings to
Mr. Knights, who then agreed to be interviewed and
gave Officer Seligman a statement. In his statement,
Mr. Knights admitted the handgun Officer Seligman
found in the front of the Oldsmobile belonged to him.
A federal grand jury indicted Mr. Knights on one
count of felon in possession of a firearm in violation of
18 U.S.C. Sections 922(g)(1) and 924(a)(2). (Doc. 1).
Agents from the Federal Bureau of Investigation
then arrested Mr. Knights. (Doc. 8). The court
arraigned Mr. Knights and later released him on
bond. (Docs. 4, 9). Mr. Knights then submitted this
motion to suppress. (Doc. 28).
II. ANALYSIS
Mr. Knights argues evidence Officers Seligman
and Samuel obtained should be suppressed because
the officers seized Mr. Knights without reasonable
suspicion in violation of the Fourth Amendment.
(Doc. 28, pp. 5–18). Because Officers Seligman and
Samuel detained him without reasonable suspicion,
Mr. Knights argues the evidence obtained were fruits
of an unlawful search. (Id. at 18–19).
The government claims the interaction between
Officers Seligman and Samuel and Mr. Knights
began as a consensual police-citizen encounter. (Doc.
34, pp. 8–12). According to the government,
reasonable suspicion arose when Officer Seligman
smelled marijuana coming from the Oldsmobile. (Id.).
Alternatively, the government claims Officers
Seligman and Samuel had reasonable suspicion to
stop Mr. Knights before they parked next to the

76a
Oldsmobile. (Id. at 12-16). Either way, the
government concludes that evidence obtained need
not be suppressed because the officers found the
evidence during a lawful seizure. (Id. at 16–18).
The undersigned
contentions in turn.

will

address

each

side’s

A. Officers Seligman and Samuel Seized Mr.
Knights When They Parked Next to the
Oldsmobile and Blocked In Mr. Knights’s
Vehicle
Mr. Knights claims Officers Seligman and
Samuel seized him when they parked the patrol car
next to the Oldsmobile. (Doc. 28, p. 10). Mr. Knights
argues the patrol car’s position next to, and slightly
behind, the Oldsmobile blocked the car “so [Mr.
Knights] could not drive forward (through the
mailbox, tree, and fence), and could not drive in
reverse (through the other mailbox, garbage
receptacle, and the police cruiser).” (Doc. 28, p. 11).
According to Mr. Knights, a reasonable person in his
situation would not feel free to leave and disregard
the officers after the patrol car parked in this manner
alongside the Oldsmobile. (Id.).
Mr. Knights also argues a reasonable person
would not feel free to leave after Officer Samuel tried
to speak with Mr. Keaton and then both officers
approached Mr. Knights in the Oldsmobile. (Id.). Mr.
Knights describes the scene in his motion to suppress
in the following way: “Two police officers in uniforms
with guns blocked Mr. Knights’s path with their car,
and then exited the vehicle, seemed to attempt to
seize his companion, and then approached him and
accused him of committing a crime.” (Id.). Mr.

77a
Knights claims the officers’ position between the
patrol car and the Oldsmobile when Officer Seligman
spoke to Mr. Knights further illustrates that a
reasonable person would not feel free to terminate
the encounter with the officers. (Id. at 11–12).
Alternatively, Mr. Knights argues the officers seized
him when he gave them his driver’s license. (Id. at
12).
The government argues Officers Seligman and
Samuel began a consensual police-citizen encounter
when they parked next to the Oldsmobile. (Doc. 34, p.
8). The government claims the officers approached
Mr. Knights to determine whether they observed a
crime in progress when the officers drove past the
Oldsmobile in the patrol car. (Id.). According to the
government, the patrol car did not block in the
Oldsmobile and a reasonable person would have felt
free to drive away. (Id. at 10). The government also
claims Mr. Knights could have walked away from the
officers, like Mr. Keaton, and a reasonable person
would have felt free to do so. (Doc. 34, p. 10). Instead,
the government argues the officers seized Mr.
Knights after Officer Seligman smelled marijuana
coming from the Oldsmobile, and that marijuana
odor established reasonable suspicion to detain Mr.
Knights. (Id. at 11–12).
The Fourth Amendment protects individuals
from unreasonable search and seizure. U.S. Const.
amend. IV. Not every police-citizen encounter results
in a seizure under the Fourth Amendment. Florida v.
Bostick, 501 U.S. 429, 434 (1991). Instead, three
categories of police-citizen encounters exist: (1)
police-citizen exchanges that involve no coercion or
detention; (2) brief seizures or investigatory

78a
detentions (Terry stops); and (3) full scale arrests.
United States v. Perez, 443 F.3d 772, 777 (11th Cir.
2006) (citation omitted). A police-citizen encounter
does not trigger Fourth Amendment scrutiny until
the interaction loses its consensual nature. Bostick,
501 U.S. at 434. A police officer need not have
reasonable suspicion of criminal activity to begin a
consensual police-citizen encounter. Id.
A police-citizen encounter is consensual as long
as a reasonable person would feel free to disregard
the police officer and “go about his business.” Id.;
California v. Hodari D., 499 U.S. 621, 628 (1991)
(citation omitted). The “simple act” of a police officer
asking questions to a citizen is not a seizure under
the Fourth Amendment. Perez, 443 F.3d at 778
(citation omitted). Courts consider the following
factors when determining if a police-citizen encounter
constitutes a seizure:
[W]hether a citizen’s path is blocked or
impeded; whether identification is retained;
the suspect’s age, education and intelligence;
the length of the suspect’s detention and
questioning; the number of police officers
present; the display of weapons; any physical
touching of the suspect, and the language and
tone of voice of the police.

United States v. De La Rosa, 992 F.2d 675, 678 (11th
Cir. 1991) (citation omitted).
A police officer seizes a citizen when the officer
“by means of physical force or show of authority”
restrains that citizen’s freedom to move. Terry v.
Ohio, 392 U.S. 1, 19 n.16 (1968); Michigan v.
Chesternut, 486 U.S. 567, 573 (1988). The test to

79a
determine whether an officer seizes a citizen under
the Fourth Amendment asks if “in view of all of the
circumstances
surrounding
the
[police-citizen
encounter], a reasonable person would have believed
that he was not free to leave.” Chesternut, 486 U.S.
at 573 (quotation and citation omitted).
The question here is whether a reasonable person
in Mr. Knights’s position would believe he was free to
leave after Officers Seligman and Samuel parked the
patrol car next to the Oldsmobile and approached
him.
The facts of this case are similar to those the
former Fifth Circuit addressed in United States v.
Beck, 602 F.2d 726 (5th Cir. 1979).5 In Beck, two
police officers patrolled a high-crime neighborhood in
a marked car when they saw a Chevrolet parked,
with two individuals inside, on the side of the road
with its engine running. Id. at 727. One of the
officers, who claimed to know almost everyone who
lived in the neighborhood, did not recognize either
occupant in the car, so he parked the patrol car next
to the Chevrolet. Beck, 602 F.2d at 727. The officer
originally parked the patrol car so close to the
Chevrolet that the officer could not get out to
investigate, so the officer pulled forward. Id. The
former Fifth Circuit found that when the officers
parked the patrol car next to the Chevrolet, “they
clearly took the sort of action contemplated by Terry
v. Ohio” and its definition of a “stop.” Id. at 728

5

The former Fifth Circuit’s decisions are binding precedent.

Bonner v. City of Prichard, 661 F.2d 1206, 1207 (11th Cir. 1981)
(en banc).

80a
(citations and quotations omitted). The former Fifth
Circuit stated:
By pulling so close to the Chevrolet, the
officers restrained the movement of [the two
occupants]; from the record it is readily
apparent they were “not free to ignore the
officer(s) and proceed on (their) way.”

Id. at 729 (citations omitted); see also Childs v.
Dekalb Cty., 286 F. App’x 687, 695 (11th Cir. 2008)
(concluding police officers seized citizens when,
among other things, the officers’ car blocked the
citizens’ car from pulling into a parking space or
leaving the parking lot); United States v. Wright, No.
3:06CR447/MCR, 2006 WL 3483503, at *3 (N.D. Fla.
Nov. 30, 2006) (concluding a police officer seized a
citizen when, among other things, the officer parked
his patrol car at an angle to the citizen’s car with the
headlights on).6
Similarly here, when Officer Seligman parked the
patrol car next to the Oldsmobile in the front yard of
a residence, he initiated an investigatory stop (i.e.,
Terry stop) by impeding Mr. Knights’s freedom of
movement.7 When Officer Seligman parked the patrol
car, Mr. Knights was by the driver’s side of the
6

But see United States v. Flores-Uriostegui, No. 1:01-CR-

00438-JEC-LTW, 2012 WL 1884036, at *9 (N.D. Ga. May 22,
2012) (stating that officers arguably needed no reasonable
suspicion to park their patrol car in a way that prevented the
defendants from moving their parked car).
7

The undersigned will discuss the characteristics and
requirements of a Terry stop in Section II(B) below, which
concerns whether the officers had reasonable suspicion to seize
Mr. Knights.

81a
Oldsmobile right next to the patrol car. After Officer
Seligmam got out of the patrol car and Officer
Samuel walked back toward the Oldsmobile, two
uniformed officers with service-issued handguns
stood between Mr. Knights and his path to the
residence. Mr. Knights then sat down in the driver’s
seat of the Oldsmobile and closed the driver-side
door—behavior that suggests Mr. Knights had no
desire to interact with the officers, but the officers
still approached him.
When Mr. Knights sat down in the driver’s seat,
in front of him was a neighbor’s mailbox and a large,
overgrown shrub. To his right was the white wooden
fence surrounding the front of the house. Behind Mr.
Knights was the house’s mailbox, a large trash
receptacle, and part of the patrol car. And to his left
was the patrol car parked trunk-to-trunk with the
Oldsmobile. Though not impossible, if Mr. Knights
wanted to drive away, he would have had significant
difficulty doing so without hitting the patrol car or an
officer.
When Mr. Knights sat in the Oldsmobile, Officer
Seligman approached him in uniform, wearing his
service-issued handgun, and flashed a flashlight at
Mr. Knights. Simultaneously, Officer Samuel, also in
uniform and wearing his service-issued handgun,
walked back toward the Oldsmobile after failing to
speak with Mr. Keaton before he entered the
residence where the car was parked. Considering the
officers’ show of authority, especially Officer
Seligman, their locations as they approached the car,
and the patrol car impeding Mr. Knights’s ability to
drive away, no reasonable person in Mr. Knights’s

82a
position would feel free to leave or disregard the two
officers.
The government claims the patrol car did not
completely block the Oldsmobile and it was possible
for Mr. Knights to drive away. But this argument
misses the point. The test is not whether it was
possible for Mr. Knights to drive away. The test is,
whether under the totality of the circumstances, a
reasonable person would believe he was free to leave.
Chesternut, 486 U.S. at 573 (quotation and citation
omitted). The totality of the circumstances in this
case establish that a reasonable person would not
drive away when an officer parks a patrol car next to
the person’s vehicle in such a way to make it very
difficult to drive away, and then the officer, in
uniform and with his service-issued handgun,
approaches the person’s parked car flashing a
flashlight at the car while a second officer also
approaches the parked car.
The government also argues no seizure occurred
when Officer Seligman parked the patrol car next to
the Oldsmobile because Mr. Knights could have
walked away like Mr. Keaton. But Mr. Keaton began
walking away from the Oldsmobile and into the
residence before Officer Seligman parked the patrol
car. Mr. Keaton did not have to walk past two officers
to get into the residence. Furthermore, before he
walked away, Mr. Keaton was on the passenger’s side
of the Oldsmobile—the side closer to the residence. In
contrast, Mr. Knights was still by the driver’s side of
the Oldsmobile—the side closer to the patrol car—
when Officer Seligman parked the patrol car in close
proximity to Mr. Knights. Had Mr. Knights decided
to walk into the residence, he would have had to walk

83a
past Officer Seligman, who approached the
Oldsmobile, and Officer Samuel, who walked back
toward the Oldsmobile. A reasonable person would
not feel free to walk past and disregard two
uniformed officers, especially after Officer Samuel
failed to speak with Mr. Keaton and the officers
parked the restrictive way they did. Therefore, the
government’s argument is unavailing.
To support its contention that the encounter did
not rise to the level of a Terry stop before Officer
Seligman smelled marijuana coming from the
Oldsmobile, the government points to the following
factors: the officers did not retain Mr. Knights’s
driver’s license until Officer Seligman smelled
marijuana; the encounter was “extremely brief”
before Officer Seligman smelled marijuana; only two
officers were present during the encounter; the
officers did not display their weapons; and the
language and tone used by the officers was “calm and
professional.” (Doc. 34, p. 10).
The length of the citizen’s detention and
questioning, whether the officers displayed their
weapons, the number of officers present, and the
officers’ language and tone of voice are relevant
factors when determining if the officers seized a
citizen. De La Rosa, 992 F.2d at 678. That said, when
a police officer parks so close to a citizen’s car to
impede the citizen’s ability to drive away, that action
is “clearly the sort of action contemplated by Terry v.
Ohio.” Beck, 602 F.2d at 728–29 (citations omitted).
As a result, Officers Seligman and Samuel seized Mr.
Knights when they parked the patrol car very close to
the Oldsmobile, impeded Mr. Knights’s ability to
drive away, then approached Mr. Knights in the

84a
Oldsmobile flashing a flashlight. Therefore, this
contention by the government is also unconvincing.
The government argues a police officer does not
seize a citizen by approaching that person in a
parked car and, for support, cites Miller v. Harget,
458 F.3d 1251 (11th Cir. 2006). In Miller, the police
officer parked a marked patrol car directly behind the
suspect’s car before getting out and approaching the
driver-side window. Id. at 1253. The suspect argued
the police officer seized him when he parked behind
his car. Id. at 1257. But the Eleventh Circuit found
no seizure when the officer parked behind the
suspect’s car because the suspect “did not
demonstrate that he had any intent to back out of the
parking space when [the police officer] pulled up
behind him.” Id. at 1258. Instead, the suspect, who
just pulled into a hotel parking lot, informed the
officers he intended to get out, walk away from the
parked car, and walk into a hotel room. Id. at 1257–
58.
Here, Mr. Knights’s actions, before and after
Officer Seligman parked the patrol car, demonstrated
no clear intent. When the officers drove past the
Oldsmobile, they heard someone—presumably Mr.
Knights because he was by the driver-side—trying to
start the engine. And when Officer Seligman parked
the patrol car next to the Oldsmobile, Mr. Knights
sat in the driver’s seat and closed the door. Therefore,
unlike the suspect in Miller who demonstrated he
had no intent to drive his parked car, it is unclear
here whether Mr. Knights intended to drive the
Oldsmobile or walk into the residence. Rather, Mr.
Knights’s attempt to start the Oldsmobile then sit in
the driver’s seat and close the door suggest he

85a
intended to drive away. As a result, Miller is
inapplicable.8
At the suppression hearing, Officer Seligman
failed to explain why he parked the patrol car trunkto-trunk with the Oldsmobile and facing toward
oncoming traffic, with the front of the patrol car
angled slightly behind the Oldsmobile’s rear,
impeding the Oldsmobile’s ability to drive away.
Officer Seligman also acknowledged he could have
parked on the right side of the street, where a citizen
would park. Had Officer Seligman parked on the
right side of the street, the patrol car would have not
have impeded Mr. Knights’s ability to drive away.
Officers Seligman and Samuel seized Mr. Knights
when Officer Seligman parked the patrol car next to
the Oldsmobile and restrained Mr. Knights’s freedom
of movement. Officer Seligman’s show of authority
after parking the patrol car (flashing his flashlight at
Mr. Knights in the Oldsmobile and approaching Mr.
Knights in uniform) further establish the officers
seized Mr. Knights. The undersigned will therefore
address whether the officers had reasonable
suspicion to seize Mr. Knights.
8
To the extent Miller applies and conflicts with the former
Fifth Circuit’s ruling in Beck, Beck controls. A former Fifth
Circuit panel decided Beck in 1979; an Eleventh Circuit panel
decided Miller in 2006. Beck, 602 F.2d 726; Miller, 458 F.3d
1251. Under the Eleventh Circuit’s prior precedent rule, only
the Supreme Court or the Eleventh Circuit sitting en banc can
overrule a prior panel decision. Cargill v. Turpin, 120 F.3d 1366,
1386 (11th Cir. 1997) (citation omitted). Therefore, until the
Eleventh Circuit sitting en banc or the Supreme Court holds
otherwise, a district court must follow Beck to the extent the
Beck and Miller decisions conflict.

86a
B. Officers Seligman and Samuel Had No
Reasonable Suspicion of Criminal Activity
When They Seized Mr. Knights
Mr. Knights argues Officers Seligman and
Samuel seized him without reasonable suspicion.
(Doc. 28, pp. 12–18). According to Mr. Knights, the
following factors were insufficient to provide the
officers with reasonable suspicion that Mr. Knights
engaged in criminal activity:
(1) that it was nighttime; (2) that there was a
“recent uptick” in violence in the area because
of gang activity; (3) that the two men were
reaching into the open doors of the car; (4)
that Mr. Knights’s companion “quickly”
walked away; and (5) that Mr. Knights tried
to turn on the engine but it would not turn
over.
(Id. at 15).
Mr. Knights argues the court should give little
weight to the time of day and the high-crime factors
because these factors are “non-specific” and no
connection existed between the gang-activity in the
neighborhood and the non-violent burglary the
officers believed they saw Messrs. Knights and
Keaton committing. (Id. at 16). Mr. Knights also
submits the court should give little weight to Messrs.
Knights’s and Keaton’s movements because neither
man left the scene in headlong flight, which might
have shown “consciousness of guilt” and provided the
officers with reasonable suspicion. (Id.). Similarly,
Mr. Knights argues the court should give little
weight to the facts that Messrs. Knights and Keaton
were leaning into the Oldsmobile and the Oldsmobile

87a
would not start. (Id. at 17). Mr. Knights concludes
that the relevant factors the officers considered are
insufficient to establish reasonable suspicion that Mr.
Knights engaged in criminal activity when the
officers approached the Oldsmobile. (Doc. 28, p. 18).
The government argues the officers had
reasonable suspicion to seize Mr. Knights. (Doc. 34,
pp. 12–16). The government claims that, although the
relevant factors Mr. Knights provided “might hold
little weight” individually, in combination, the factors
establish reasonable suspicion. (Id. at 14–15).
Generally, a police officer must obtain a warrant
supported by probable cause to search an individual.
United States v. Magluta, 418 F.3d 1166, 1182 (11th
Cir. 2005). But an officer may conduct a Terry stop
when, in light of his experience, he has reasonable
suspicion that an individual may be involved in
criminal activity. Terry v. Ohio, 392 U.S. 1, 30 (1968).
A Terry stop is a brief, warrantless investigatory
detention. Id.; Illinois v. Wardlow, 528 U.S. 119, 123
(2000) (citation omitted).
To determine if an officer had reasonable
suspicion, the court considers the totality of the
circumstances. United States v. Cortez, 499 U.S. 411,
418 (1981). Using the “whole picture,” the court
determines whether the officer had a “particularized
and objective basis” for stopping the individual. Id.
(citations omitted). The officer need not be certain the
individual is involved in criminal activity. Terry, 392
U.S. at 28. Instead, the question is whether a
reasonably prudent person would be justified in
believing his safety, or the safety of others, was in
danger. Id.

88a
Reasonable suspicion is a less demanding
standard than probable cause. Wardlow, 528 U.S. at
123. That said, reasonable suspicion is more than a
hunch and requires a minimal level of objective
justification. Wardlow, U.S. at 123–24 (citations
omitted). The officer must draw on his own
experience and specialized training to make
inferences about the information available to him.
United States v. Arvizu, 534 U.S. 266, 274 (2002).
Under Terry, a court must first examine whether the
officer’s
original
investigation
of
suspicious
circumstances was justified “at its inception.” 392
U.S. at 19–20. Next, a court must determine whether
the scope of any search was reasonably related to the
circumstances that justified the investigatory
detention in the first place. Id. at 20. With respect to
a suppression motion, the government must prove
reasonable suspicion existed by a preponderance of
the evidence. United States v. Matlock, 415 U.S. 164,
177 n.14 (1974) (citation omitted); Florida v. Royer,
460 U.S. 491, 500 (1983).
Here, the officers’ seizure of Mr. Knights was not
justified at its inception because no reasonable
suspicion of criminal activity existed. When driving
through a high-crime neighborhood around 1:00 a.m.,
Officers Seligman and Samuel saw two men leaning
into an Oldsmobile parked in front of a residence
with its doors open. When the officers drove past the
Oldsmobile, the two men gave the officers a “blank
stare.” Shortly after, the officers heard someone try
to start the Oldsmobile, but its engine would not
start. When Officer Seligman turned the patrol car
around to investigate, Mr. Keaton already began
walking toward the front door of the residence where

89a
the Oldsmobile was parked. These facts, taken
together as a “whole picture,” establish no reasonable
suspicion of criminal activity by Messrs. Knights and
Keaton.
Officers Seligman and Samuel did not see the two
men try to pry the Oldsmobile’s doors open, pick the
locks to the Oldsmobile’s doors, or break the
Oldsmobile’s windows open. The officers also did not
see the two men pull property out of the Oldsmobile.
Nor did the officers see either man take off in
headlong flight (i.e., sprint) once they saw the patrol
car. Had the officers observed these types of actions,
they may have had sufficient articulable facts to
establish the necessary reasonable suspicion (as
opposed to just a hunch) that Mr. Knights engaged in
criminal activity.
Once again, Beck is instructive on this issue.
There, the officers claimed they had reasonable
suspicion to stop two men in a parked Chevrolet
because they were in a high-crime neighborhood, the
parked Chevrolet’s engine was running, the
Chevrolet was parked next to a convenience store,
and one of the officers, who claimed to know everyone
in that neighborhood, did not recognize either
individual in the Chevrolet. Beck, 602 F.2d at 729.
The former Fifth Circuit concluded these factors were
insufficient for the officers to reasonably suspect the
two men of criminal activity. Id. With respect to the
two men in the Chevrolet the officers seized, the
former Fifth Circuit stated:
They were not offending any traffic
ordinance; there was no evidence of recent
crimes in the neighborhood, no reason to

90a
suspect that Beck or his passenger were
wanted by the police, and no other reason to
believe anything unusual was taking place.

Id.; see also United States v. Alvin, 701 F. App’x 151,
153–54 (3d Cir. 2017) (concluding no reasonable
suspicion existed when officers seized a citizen who
made nervous movements by a car parked in a highcrime neighborhood); United States v. Dell, 487 F.
App’x 440, 446 (10th Cir. 2012) (concluding no
reasonable suspicion existed when an officer detained
a citizen who looked into the windows of a parked car
in a high-crime neighborhood and then walked away
from the parked car when he saw the officer’s patrol
car).
Similarly here, Messrs. Knights and Keaton were
not offending any traffic ordinance. Although Officers
Seligman and Samuel previously responded to
shootings and narcotics crimes related to gang
activity in the area, neither testified they responded
to car burglaries or that there had been a recent
increase in car burglaries. Nor did the officers testify
that Messrs. Knights’s and Keaton’s actions were
consistent with previous car burglaries they
witnessed or responded to in their experience as
police officers. And, put simply, an older car’s failure
to start is not so unusual that it is reasonable for the
officers to jump to the conclusion that the car is being
stolen. Therefore, even taking the facts in the light
most favorable to the government, the suspicion that
Messrs. Knights and Keaton were in the process of
burglarizing the car or stealing the car itself was not
reasonable. To the extent any initial suspicion of
criminal activity may have been reasonable, the
officers' observation that Mr. Keaton subsequently

91a
walked the short distance to the front door of the
house where the Oldsmobile was located should have
diminished that suspicion before Officer Seligman
parked the patrol car to investigate.
Mr. Knights leaning into a car at 1:00 a.m. in a
high-crime area, giving a “blank stare” to officers
when they drove past in a patrol car, and
unsuccessfully trying to start the car did not provide
Officers Seligman and Samuel with reasonable
suspicion of criminal activity. Therefore, their seizure
of Mr. Knights was unlawful from its inception.
C. Evidence and Statements Officers Seligman
and Samuel Obtained Were Fruits of an
Unlawful Seizure
A court must suppress evidence obtained during
an unlawful search, unless the officers obtained the
evidence “by means sufficiently distinguishable from
the primary taint.” Wong Sun v. United States, 371
U.S. 471, 488 (1963) (quotation marks and citation
omitted). When determining if a confession or
statement made by a defendant is the result of an
unlawful search, courts consider multiple factors,
including: (1) the temporal proximity of the arrest
and the confession or statement; (2) the presence of
intervening circumstances; and (3) the purpose and
flagrancy of the officers’ misconduct. Brown v.
Illinois, 422 U.S. 590, 603–04 (1975). Miranda
warnings alone are not enough to “attenuate the
taint of an unconstitutional arrest.” Id. at 602. Nor
does a police officer’s lack of physical abuse “cure the
illegality of an initial arrest.” Taylor v. Alabama, 457
U.S. 687, 694 (1982).

92a
Here, the physical evidence and statements
Officers Seligman and Samuel obtained were the
fruits of an unlawful seizure. The officers unlawfully
detained Mr. Knights without reasonable suspicion
when Officer Seligman parked the patrol car trunkto-trunk with the Oldsmobile and impeded Mr.
Knights’s freedom of movement. As a result of that
unlawful
seizure,
Officer
Seligman
smelled
marijuana coming from the Oldsmobile after Mr.
Knights rolled down the window to speak with
Officer Seligman. The marijuana smell led to Officer
Seligman searching Mr. Knights and the Oldsmobile.
During his search, Officer Seligman found pill bottles
with pills inside, marijuana residue, a firearm, and
firearm cartridge. Officer Samuel subsequently found
a rifle and another cartridge in the trunk. The
officers then read Mr. Knights Miranda warnings and
obtained a statement. This sequence of events
illustrates that no intervening circumstances purged
the taint of the officers’ unlawful seizure.
Again, Beck is instructive and binding. In Beck,
when police officers unlawfully seized two men in a
parked Chevrolet, one of the officers, who got out of
the patrol car to speak to the suspects, saw a
marijuana cigarette on the ground near the
Chevrolet. 602 F.2d at 627. After seeing the
marijuana cigarette, the officer arrested the suspect,
placed him in the patrol car, and found a syringe and
more marijuana in the Chevrolet. Id. The officers
then told both suspects they were under arrest and
read them Miranda warnings. Id. Despite giving
Miranda warnings and no indication of physical
abuse by the officers, the former Fifth Circuit found

93a
the drugs and paraphernalia obtained were fruits of
the unlawful detention. Id. at 729.
Similarly here, the evidence and statements
obtained by Officers Seligman and Samuel were
fruits of an unlawful seizure, despite the calm
interaction between the officers and Mr. Knights and
despite Officer Seligman giving Mr. Knights Miranda
warnings. Therefore, all physical evidence and
statements Officers Seligman and Samuel obtained
should be suppressed.9
III. CONCLUSION
Officers Seligman and Samuel seized Mr. Knights
when Officer Seligman parked the patrol car trunkto-trunk next to the Oldsmobile and impeded Mr.
Knights’s freedom of movement. Officer Seligman’s
show of authority, by approaching Mr. Knights,
seated in the Oldsmobile, in uniform and flashing a
flashlight at him further establishes Officer Seligman
seized Mr. Knights. At the seizure’s inception,
Officers Seligman and Samuel had no reasonable
suspicion Mr. Knights was burglarizing the car,
stealing the car itself, or otherwise engaged in
criminal activity. Therefore, the physical evidence
and statements the officers obtained were fruits of an
unlawful detention. Mr. Knights’s motion to suppress
(Doc. 28) should be GRANTED.
9

The government argues the officers had probable cause to
search Mr. Knights and the Oldsmobile; therefore, the evidence
and statements obtained resulted from a lawful seizure. (Doc.
34, pp. 16–18). However, because the officers lacked reasonable
suspicion from the inception of Mr. Knights’s unlawful
detention, the undersigned need not address this argument
predicated on probable cause.

94a
RECOMMENDED in Tampa, Florida on this
16th day of July, 2018.

Amanda Arnold Sansone
AMANDA ARNOLD SANSONE
UNITED STATES MAGISTRATE JUDGE

NOTICE TO PARTIES
Failure to file written objections to the proposed
findings and recommendations contained in this
report within fourteen days from the date of this
service shall bar an aggrieved party from attacking
the factual findings on appeal. See 28 U.S.C.
§ 636(b)(1).
Copies to: Counsel of Record, District Judge

95a
APPENDIX E
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
____________
No. 19-10083-EE
____________
UNITED STATES OF AMERICA,
Plaintiff–Appellee,
versus
ANTHONY W. KNIGHTS,
Defendant–Appellant.
___________________
On Appeal from the United States District Court
for the Middle District of Florida
__________________
ORDER:
Within twenty-one (21) days of the date of this
Order, counsel for the government is directed to file a
brief in response to Appellant Knights’ petition for
rehearing en banc. The government should address
whether the race of a suspect may be a relevant
factor in deciding whether a seizure has occurred
under the Fourth Amendment. See United States v.
Easley, 911 F.3d 1074 (10th Cir. 2018).
The Government’s response should be no more
than 3,900 words. Appellant may file a reply of no
more than 1,950 words or one-half the word count

96a
specified in Fed. R. App. R. 35(b)(2) within twentyone (21) days of the Government’s response.
David J. Smith
Clerk of the United States Court of
Appeals for the Eleventh Circuit

ENTERED FOR THE COURT –
BY DIRECTION

